<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                  PETER J. VISCLOSKY, Indiana, Chairman
 CHET EDWARDS, Texas                RODNEY P. FRELINGHUYSEN, New 
 ED PASTOR, Arizona                 Jersey
 MARION BERRY, Arkansas             ZACH WAMP, Tennessee
 CHAKA FATTAH, Pennsylvania         MICHAEL K. SIMPSON, Idaho
 STEVE ISRAEL, New York             DENNIS R. REHBERG, Montana
 JOHN W. OLVER, Massachusetts       KEN CALVERT, California
 LINCOLN DAVIS, Tennessee           RODNEY ALEXANDER, Louisiana  
 JOHN T. SALAZAR, Colorado          
 PATRICK J. MURPHY, Pennsylvania      
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
               Taunja Berquam, Joseph Levin, James Windle,
            Tyler Kruzich, and Casey Pearce, Staff Assistants

                                ________

                                 PART 5
                         U.S. CORPS OF ENGINEERS
                          BUREAU OF RECLAMATION

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
      PART 5--ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2011
                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                  PETER J. VISCLOSKY, Indiana, Chairman
 CHET EDWARDS, Texas                RODNEY P. FRELINGHUYSEN, New 
 ED PASTOR, Arizona                 Jersey
 MARION BERRY, Arkansas             ZACH WAMP, Tennessee
 CHAKA FATTAH, Pennsylvania         MICHAEL K. SIMPSON, Idaho
 STEVE ISRAEL, New York             DENNIS R. REHBERG, Montana
 JOHN W. OLVER, Massachusetts       KEN CALVERT, California
 LINCOLN DAVIS, Tennessee           RODNEY ALEXANDER, Louisiana  
 JOHN T. SALAZAR, Colorado          
 PATRICK J. MURPHY, Pennsylvania      
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
               Taunja Berquam, Joseph Levin, James Windle,
            Tyler Kruzich, and Casey Pearce, Staff Assistants

                                ________

                                 PART 5
                         U.S. CORPS OF ENGINEERS
                          BUREAU OF RECLAMATION

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 61-742                     WASHINGTON : 2010

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman
 
 NORMAN D. DICKS, Washington        JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia    C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                 HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana        FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York            JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York          RODNEY P. FRELINGHUYSEN, New   
 ROSA L. DeLAURO, Connecticut       Jersey
 JAMES P. MORAN, Virginia           TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts       ZACH WAMP, Tennessee
 ED PASTOR, Arizona                 TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina     ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island   KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York       MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California  JOHN ABNEY CULBERSON, Texas
 SAM FARR, California               MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois    ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan    DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania         RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey      KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia    JO BONNER, Alabama
 MARION BERRY, Arkansas             STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California            TOM COLE, Oklahoma             
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          
 PATRICK J. MURPHY, Pennsylvania    
                                     
                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


 ENERGY AND WATER DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2011

                              ----------                              --
--------

                                      Wednesday, February 24, 2010.

                        ARMY CORPS OF ENGINEERS

                               WITNESSES

JO-ELLEN DARCY, ASSISTANT SECRETARY OF THE ARMY FOR CIVIL WORKS
LIEUTENANT GENERAL ROBERT VAN ANTWERP, CHIEF OF ENGINEERS, U.S. ARMY 
    CORPS OF ENGINEERS
MAJOR GENERAL WILLIAM GRISOLI, DEPUTY COMMANDING GENERAL, CIVIL & 
    EMERGENCY OPERATIONS, U.S. ARMY CORPS OF ENGINEERS
GARY A. LOEW, CHIEF, CIVIL WORKS PROGRAMS INTEGRATION DIVISION, U.S. 
    ARMY CORPS OF ENGINEERS
    Mr. Pastor. Good afternoon. We have before us today the 
Assistant Secretary of the Army for Civil Works, Jo-Ellen 
Darcy. This is Ms. Darcy's first appearance before the 
subcommittee and we welcome you. But you have already provided 
us with much assistance and we look forward to continuing to 
work with you. And today we have the Chief of the Engineers, 
who is a Lieutenant General. You have been with us now, what, 
at least a couple years.
    General Van Antwerp. It is my third year.
    Mr. Pastor. Third year. And good to see you Major General 
William Grisoli. And Gary Loew. Where is Gary? Oh, there's 
Gary. Good to see you, Gary. They are here today to present the 
administration's budget request for the Corps of Engineers. I 
would also like to introduce Marie Vanderpool. Where is Marie? 
There is Marie. Marie has joined us this year from the Corps' 
district office in Fort Worth. That ought to make you happy, 
Chet.
    Mr. Edwards. Absolutely.
    Mr. Pastor. And we are very happy to have her. As you know, 
every year we have someone as a liaison, and they do great work 
for us every year as we prepare the budget. So we want to thank 
you and we look forward to working with you, because we look to 
her for guidance and recommendations.
    The fiscal year 2011 budget request for the Corps program 
totals $4.9 billion, a reduction of $506 million from the 
fiscal year 2010 enacted level. As with most budgets for the 
Corps of Engineers, past budgets, this budget continues to 
disappoint us. I understand that the administration has made 
difficult choices in a constrained fiscal environment, but 
providing adequate and efficient navigation channels and flood 
control to the Nation are vital to our economy and also are a 
factor in maintaining and adding jobs.
    Ms. Darcy, I will be interested today in hearing your 
defense of the choices made in the Corps' fiscal year 2011 
budget request, fiscal year 2010 execution and the overall 
Corps management. Ms. Darcy, I would ask your assistance in 
ensuring that the hearing record, the questions for the record 
and any supporting information requested by the subcommittee be 
delivered in final form to the subcommittee no later than 4 
weeks from the time you receive them, and that is so that we 
can make informed decisions. Members who have additional 
questions for the record will have until close of business 
tomorrow to provide them to the subcommittee office.
    With these opening comments, I would like to yield to the 
committee's ranking member for any opening comments that he may 
have.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. It is a 
pleasure to be serving with you again and all members of the 
committee and the great staff that makes us look good. We 
appreciate it. I would like to add my welcome to Secretary 
Darcy as she attends her first hearing before the subcommittee. 
You know the Hill pretty well and I think you know that 
traditionally and historically members of this committee love 
the Army Corps and obviously will learn to hold you in 
affection as well. And to General Van Antwerp and your 
colleagues, thank you very much for being here.
    I would also like to take this opportunity, I am sure I do 
it on behalf of the whole committee, to thank the men and women 
of the Corps for their hard work both here and overseas. They 
serve, you serve, in some of the most difficult and dangerous 
places in the world and I don't think you get enough 
recognition. Recently in Haiti, providing relief and doing all 
sorts of things to rebuild the harbor and providing some pretty 
basic necessities, and your continued work in Afghanistan; a 
lot of work has been going on recently in Iraq. I think a 
figure is close to 10,000 civilians in the Army Corps, correct 
me if I am wrong, have spent some time in Iraq and Afghanistan 
over the last 7 or 8 years, and we are highly appreciative of 
that service and that sacrifice. And that is done voluntarily. 
While we have a volunteer military, not all those who work for 
the Corps do have to volunteer, but 10,000 I think have and we 
certainly congratulate them.
    I just wanted to take a moment before we begin to pay 
tribute to one of your own, Colonel John O'Dowd, who passed 
away on January 21st, a son of New Jersey. Colonel O'Dowd was 
the New York District Commander from 2001 to 2004 and had a 
long and distinguished career serving our country at home and 
abroad, and he did it at a time in the New York-New Jersey 
region in the aftermath of September 11, 2001. I for one will 
never forget the work of the Corps and a lot of other great 
people and his leadership in that regard. We were sorry to hear 
about his sudden death, and please know that our thoughts and 
prayers go with his family and to the Corps family as well. He 
will be surely missed.
    Mr. Chairman, my constituents are united in one thing: We 
have to stop spending so much of their money here in 
Washington. With ballooning deficits and continued 
unemployment, they want to keep more of their money at home. 
But when Congress does spend their money, they assume that it 
will be spent wisely and that whatever is spent can be 
considered to be a sound long-term investment, and I think that 
is what the Corps is all about. And that applies whether it is 
regular appropriations or stimulus.
    When I look over the administration's request for our 
subcommittee's consideration, major cuts are proposed for water 
programs. Your budget request is cut, as the chairman said, 
over $500 million from last year, your work to keep our 
waterways open and our defenses against flooding strong is 
critically important. Past investments and projects have shown 
their value many fold.
    Strangely, among your major program lines only aquatic 
restoration has increased. Navigation funding, however, is cut 
by nearly 8 percent, flood protection by almost 17 percent. Is 
the condition of our navigation system strong enough to justify 
this? Are our cities and homes so safe from future flooding 
that we can actually take away funding in order to fund other 
environmental projects? I am sure we will explore some of these 
issues this afternoon.
    A month ago a lock gate failed at Greenup. I know Greenup 
is in Kentucky, but that failure closed down the Ohio River, 
correct me if I am wrong, that navigation system for 3 or 4 
days. And that type of situation could happen across the 
system, unless we provide significant new funding for our 
navigation system, one estimate is that 80 percent of our locks 
will be obsolete in another 10 years. I don't think that 
cutting navigation funds by nearly 8 percent makes much sense.
    Madam Secretary, General, the Office of Management and 
Budget obviously controls your lives and to some extent ours. 
OMB should be helping you solve some of these problems. While I 
support smarter and smaller budgets overall, I have serious 
concerns about some of the priorities expressed in the 
documents before us. I hope we can have a constructive 
discussion today about the real analytical work that went into 
these documents.
    I thank you, Mr. Pastor, for the time and happy to yield 
back.
    Mr. Pastor. Thank you very much, Rodney. We will take 5 
minutes for questions, and we will keep time more or less 
within the 5. And so before we ask questions we will have the 
opening statement from Ms. Darcy. And as you know we have a 
written statement, so we will submit that for the record, and 
you may continue.
    Ms. Darcy. Thank you, Mr. Chairman and distinguished 
members of the subcommittee. Thank you for the opportunity to 
present the President's budget for the Civil Works Program of 
the Army Corps of Engineers for fiscal year 2011. With me today 
are Lieutenant General Robert Van Antwerp, Chief of Engineers 
for the U.S. Army Corps of Engineers, Major General Bill 
Grisoli, who is the Deputy Commander for Civil and Emergency 
Operations, and Gary Loew, who is the Chief of the Civil Works 
Program's Integration Division. I will summarize my written 
statement and ask that my full statement be included in the 
record.
    The fiscal year 2011 President's budget for the Civil Works 
Program is $4,939,000,000. The budget supports four principal 
objectives: Funding construction of the highest performing 
water resources infrastructure investments that will provide 
the best return from a national perspective; supporting the 
Nation's navigation network by funding capital development 
achievable within current revenues; advancing aquatic ecosystem 
restoration efforts and continuing to meet the requirements of 
the Endangered Species Act; and emphasizing critical 
maintenance and operational reliability of the existing civil 
works infrastructure.
    The budget focuses funding primarily on three main Civil 
Works Program areas: commercial navigation, flood and coastal 
storm damage reduction, and aquatic ecosystem restoration. The 
budget also supports hydropower, recreation, environmental 
stewardship, and water supply services at existing resources 
projects owned or operated by the Corps.
    Finally, the budget provides for protection of the Nation's 
regulated waters and wetlands, cleanup of sites contaminated as 
a result of the Nation's early efforts to develop atomic 
weapons, and emergency preparedness and training.
    In keeping with President Obama's commitment to limit the 
overall level of nonsecurity discretionary spending, the level 
of funding and the 2011 civil works budget is a reduction from 
both the 2010 budget and the 2010 appropriations. However, the 
2011 funding level reflects a practical, effective, and a sound 
use of the Nation's financial resources.
    The Army continues to apply objective performance 
guidelines to many competing civil works construction projects 
in order to establish priorities among them and to guide the 
allocation of funds to high performing ongoing projects and 
high performing new construction starts. These guidelines 
emphasize investments that provide the best return from a 
national perspective and achieving economic, environmental, and 
public safety objectives.
    The budget includes two construction new starts and several 
new initiatives. One of the construction new starts is the 
Louisiana Coastal Area Program, which will provide funding for 
the construction of projects coming out of the study by the 
same name, after they have favorably completed the 
Administration review. The other construction new start is a 
nonstructural flood damage reduction program in Onion Creek, 
Texas.
    Within the Operation and Maintenance Program there is 
funding for a new global change sustainability program to 
assess the impacts of climate change on Civil Works projects. 
Understanding those impacts will enable the Corps to identify 
operational and other modifications to anticipate and to 
respond to climate change.
    Last year, the Administration proposed legislation for a 
new user fee to increase revenue in the Inland Waterway Trust 
Fund, and that proposal remains available for consideration by 
Congress in support of the 2011 budget. The Army continues to 
work in partnership with the inland waterway stakeholders to 
identify priorities and an effective funding stream for inland 
waterway construction and rehabilitation for the next 20 years, 
which could be made possible by enactment of a new funding 
mechanism.
    The budget provides $180 million for the South Florida 
Everglades Ecosystem Restoration Program, which includes 
funding for continued construction of five significant 
restoration projects: Picayune Strand, Site One Impoundment, 
Indian River Lagoon South, Kissimmee River, and the C-111 
project.
    The budget also supports work on other major ecosystem 
initiatives, in part through Federal interagency working groups 
headed by the Council on Environmental Quality. The budget 
includes a total of $52 million for one such effort, which is 
the California Bay Delta restoration.
    Within the ongoing Cultural Resources Program, $3 million 
is included to continue the Veterans Curation Project, which 
was initially funded through the American Recovery and 
Reinvestment Act and recently received the Annual Chairman's 
Award from the Advisory Council on Historic Preservation. The 
Veterans Curation Project supports small curation laboratories 
in Augusta, Georgia; St. Louis, Missouri; and here in 
Washington, D.C., three cities with high populations of 
recently returning and wounded veterans. The veterans are hired 
into temporary positions and receive on-the-job training in 
curation of some of the backlog of archeological and historic 
properties that have come into the Corps' possession over the 
years. This is an innovative approach to supporting returning 
and disabled veterans of all branches of military service with 
jobs in training and a variety of technical skills with broad 
applicability while benefiting the Civil Works Program. I spoke 
at the opening of the lab in Augusta and I was moved by the 
stories of how this program has given hope to our recovering 
veterans.
    In conclusion, this is a frugal budget that reflects the 
priorities of a nation that is both at war and successfully 
navigating its way out of economic upheaval. While this budget 
does not fund all of the good things that the Corps of 
Engineers is capable of doing, it will support very important 
investments that will yield long-term returns for the Nation's 
citizens.
    Mr. Chairman, I am proud to support the 2011 budget of the 
Army Civil Works Program. Thank you very much.
    [The statement of Ms. Darcy follows:]

    [GRAPHIC] [TIFF OMITTED] T1742A.001
    
    [GRAPHIC] [TIFF OMITTED] T1742A.002
    
    [GRAPHIC] [TIFF OMITTED] T1742A.003
    
    [GRAPHIC] [TIFF OMITTED] T1742A.004
    
    [GRAPHIC] [TIFF OMITTED] T1742A.005
    
    [GRAPHIC] [TIFF OMITTED] T1742A.006
    
    Mr. Pastor. Thank you, Ms. Darcy. General.
    General Van Antwerp. Thank you, Mr. Chairman and 
distinguished members of the subcommittee. It is a real honor 
to be before you today. If you wouldn't mind, I would like to 
make some introductions of this row that is right behind me 
because we brought all of our division commanders today. If you 
are wondering who is running the Corps we have got 36,000 great 
commanders out there, so we are in good hands even though all 
these folks are here. Some of this is their education. I will 
start over here on your left, my right.
    This is Duke DeLuca. He is with the North Atlantic Division 
out of New York City. Next to him is Rock Donahue. Rock is out 
of the South Pacific Division in San Francisco. This is General 
Mike Walsh. He is out of the Mississippi Valley Division in 
Vicksburg, Mississippi. Next to him is John McMahon from the 
Northwest Division out in Portland, Oregon. And then of course 
Steve Stockton, who needs no introduction by anybody.
    I will start over here with Tony. Well, all the way over. 
Gene Ban is representing the Pacific Ocean Division. His 
commander is in Japan today, hosting a meeting. So Gene, nice 
to have you with us. This is Tony Funkhouser. He is the 
Commander of the Southwest Division out of Dallas. Next is Todd 
Semonite, Commander of the South Atlantic Division out of 
Atlanta, Georgia. And General John Peabody, Lakes and Rivers 
Division. He is our Asian carp expert. It is great to be with 
you here today.
    This budget is a performance-based budget. It makes the 
best use of available funds through a focus on projects and 
activities that provide the highest returns, both economic and 
environmental, and it makes the best investment we can and it 
really addresses significant risk where human safety comes in.
    The budget funds 99 construction projects, including four 
in the Mississippi River and Tributaries Account. There are 10 
dam safety assurance and seepage control and static instability 
correction projects. You might ask if were there more that 
could be done. These 10 all have the studies and the designs 
done. That is as many dam safety projects as we had at this 
point to be ready to move forward. There are 20 projects that 
address significant risk to human safety, and then 69 other 
projects.
    This budget supports restoration of nationally and 
regionally significant aquatic systems with emphasis on the 
Florida Everglades, Louisiana coastal area, and Hamilton Air 
Field in California, which is in the San Francisco Bay region. 
Also the budget supports the Columbia River and Missouri River 
fish projects to support the continued operation of the Corps 
of Engineers' multi-purpose projects.
    As soon as the Corps constructs a project our attention has 
to turn to operation and maintenance. Generally with periodic 
maintenance, we can operate our facilities for many years. I 
might just give you one point of reference. Our 241 locks in 
the Corps of Engineers have an average age of 58.3 years old. 
So that is part of the challenge. Most of those had a design 
life of around 50 years, but they can go a long time if we 
properly maintain them. This budget supports our continued 
stewardship in this area.
    The Operation and Maintenance Program for fiscal year 2011 
includes $2.36 billion and an additional $153 million in the 
Mississippi River and Tributaries Account.
    We support the President's commitment to continued sound 
development and management of the Nation's water and related 
land resources. The way in which we manage our water resources 
can improve the quality of life for citizens. We found that 
even in Haiti one of the most important things early on is to 
get water back to the people and properly do that.
     The Corps of Engineers personnel from across the Nation 
continue to respond to calls for help both domestically and 
internationally. As was mentioned, we have had almost 10,000 
civilians deployed since we started Iraq and Afghanistan, and I 
will add another piece, Katrina. In those three areas, 10,000 
people deployed. We currently have almost 800 people deployed 
into Afghanistan.
    I especially want to recognize those many, I call them 
expeditionary, they are both civilians and soldiers, that 
really provide this engineering expertise all over the world. 
Today we are in 34 countries around the world. The unsung 
efforts of these patriotic men and women contribute greatly 
toward this Nation's goals and restoring the economy, security, 
and quality of life for everyone.
    In closing, the Corps of Engineers is committed to staying 
at the leading edge of service to the Nation. We are committed 
to change that ensures an open, transparent and performance-
based Civil Works Program.
    Sir, thank you for the opportunity comment and I look 
forward to your questions.
    [The statement of General Van Antwerp follows:]

    [GRAPHIC] [TIFF OMITTED] T1742A.007
    
    [GRAPHIC] [TIFF OMITTED] T1742A.008
    
    [GRAPHIC] [TIFF OMITTED] T1742A.009
    
    [GRAPHIC] [TIFF OMITTED] T1742A.010
    
    [GRAPHIC] [TIFF OMITTED] T1742A.011
    
    Mr. Pastor. Thank you, General, for your testimony. And I, 
as well as all my colleagues here, we also want to thank the 
patriots, the men and women who serve the Corps of Engineers, 
for the fine work they do regardless of where they are at, 
those in Iraq or Afghanistan, Katrina and other parts of our 
great country.
    Madam Secretary, one of the concerns I have is if the 
budget request, if enacted as requested, I asked the staff what 
would be the preliminary result. And they have told me that it 
would be either a suspension or a termination of more than 350 
studies or projects that are ongoing currently with the Corps. 
And that caused me to think of what would be the resulting jobs 
that would be eliminated, terminated, and what it would do to 
just the economic impact it would have in those communities 
where these projects would have to be delayed or terminated. 
And I ask that question and have that concern. Because as you 
know probably if there is one mantra that unites Republicans 
and Democrats, it's job creation and the unemployment rate that 
we face. And so I would ask you how would you ask us to defend 
this budget request, if enacted, when we know that that would 
be one of the major consequences of this budget.
    Ms. Darcy. Mr. Pastor, I think that as we described the 
budget, it is a frugal budget. It is never as much as anyone 
wants, but we are going to do the best that we can to work 
within it to retain as many jobs as possible. We can get back 
to you with the numbers, as to what the actual job impact would 
be. We have not done that analysis about what the impact would 
be of those 300 odd studies or projects that you said would not 
be funded. I don't know that answer. But I do know that we are 
going to do all that we can to make sure that these dollars are 
spent wisely and efficiently and in the best way that we can to 
retain the jobs that we have and to make those dollars go as 
far as we can with job creation.
    Mr. Pastor. Well, one thing I learned from law school was 
that reasonable people will differ. And I don't know if I am 
going to ask you to take the time and energy to determine the 
total job loss, but it is a concern that at least I have, and I 
imagine, as I heard from Rodney, it is a concern I guess a lot 
of the members have. And so we feel that under the 
circumstances, we understand and we are all going to do our 
best; but in developing priorities it is all in the eye of the 
beholder in terms of what is best for these times. Obviously 
your people have looked at it and determined what you think. 
But collectively I think we have a responsibility here as a 
subcommittee to look at what your priorities are. And maybe if 
we think that there are other ways that we can maintain the job 
force that we have or if there is other ways to spend the 
money, obviously I think that is at the discretion of this 
group. But we will work with you, and hopefully together we 
will meet the goals of the administration and also the concerns 
that the members have of the subcommittee. But we look forward 
to working with you. I just wanted you to highlight some of the 
concerns we have, because obviously these are difficult times. 
But by both of us working together with a group of members here 
we can probably develop a bill that will be helpful to America, 
at the same time create jobs or maintain jobs, employment and 
assist the economic welfare of our country.
    Rodney.
    Mr. Frelinghuysen. It is awfully quiet in here, Mr. 
Chairman. Thank you for the opportunity. Madam Secretary and 
General Van Antwerp, both of you, if you care to respond. The 
Corps received I think $4.6 billion under the Recovery Act, a/
k/a stimulus. As of January 22nd the Corps had only obligated, 
I think, 62 percent of that amount. I realize that the Corps 
didn't receive its final allocations from OMB until nearly May, 
but I think we had all hoped for of all the agencies, the Army 
Corps, the military model, the ``can do'' group, the shovel 
ready team, could have perhaps maybe executed some of these 
projects in a more expeditious way.
    Can you give members of the committee some insight into the 
schedule for obligating, where we're going relative to 
expenditures? Maybe tell us how much money has actually been 
spent, how much has been obligated and where we are going here. 
We are counting on you. We support you.
    Ms. Darcy. As you said, the Corps received $4.6 billion 
under the stimulus program. To date we have obligated $3 
billion of that $4.6 billion. We are on track. Our goal is to 
obligate 80 percent by the end of March. We are on target to 
meet that goal. We have 830 projects. We have already completed 
71 of those projects with our ARRA funding.
    As I say, we are on track. We have until September to 
obligate all of it. We will obligate 80 percent by the end of 
March. We have completed projects. We have over 3,000 contracts 
under contract right now. Through our contracting authority, 74 
percent of our contracts have gone to small businesses. 20 
percent of those have gone to disadvantaged businesses. Another 
15 percent have gone to minority-owned businesses. One thing at 
the Corps, we have a lot of small projects. We don't have a 
contract out there that is more than $50 million. Most of them 
are much smaller than that. We have been able to generate a 
great number of contracts and individual work packages 
throughout the Corps, throughout all of our mission areas, 
whether it be flood control or navigation for example. Across 
all of the mission areas of the Corps we have been able to fund 
projects with the stimulus money.
    Mr. Frelinghuysen. Your response is pretty comprehensive. I 
want to compliment you. I don't mean in any way to be 
solicitous. It is a good solid response. First of all, let me 
commend you, I am sure all committee members do, for what you 
are doing to make sure that when those who are veterans come 
back, that they have jobs. When people come into my office with 
their hat in their hand, I say what are you doing to hire 
veterans before you ask me to do something on your behalf. Let 
me commend you on the veterans project, and I think we ought to 
promote whatever we can do for those that have served us.
    The numbers, the employment numbers, as you are aware, on 
the Recovery Act and stimulus are somewhat elusive. And I don't 
mean this in any political way, but I think it is important for 
people to sort of have some reassurance that there are actually 
some private sector jobs being produced out there. You gave me 
a great response. If there is some way to put maybe a little 
more meat on the bones, I think it probably would be 
beneficial.
    Ms. Darcy. In the most recent quarter of reporting, sir, 
our program generated 6,047 jobs.
    Mr. Frelinghuysen. You didn't know I was going to ask that 
question.
    Ms. Darcy. Out of full disclosure, yesterday I was in front 
of Congressman Oberstar's committee on the implementation of 
ARRA.
    Mr. Frelinghuysen. Good. I think anybody who comes before 
Appropriations, any committee these days, would like to have 
some reassurance that we get as many private sector jobs out 
there as possible, and you touch a lot of that.
    Thank you, Madam Secretary. Thank you, Mr. Chairman.
    Mr. Pastor. Chet.
    Mr. Edwards. Thank you, Mr. Chairman. Madam Secretary, it 
is good to see you for the second time today. I saw her 
previously wearing her hat overseeing Arlington Cemetery's 
operations and maintenance. Thank you for your work on that. 
Thank you all for your work in Civilian Works Projects with the 
Corps.
    Let me quickly touch on something that doesn't get 
discussed a lot publicly here, because it is not in one of the 
top four priorities of the Corps. Is it correct that more 
Americans visit Army Corps parks and recreation facilities in a 
given year than the entire National Park System, is that 
correct?
    Ms. Darcy. It is close to correct. We had 360 million 
visitors last year, is that correct?
    General Van Antwerp. Visitor days.
    Ms. Darcy. Sorry, 360.
    Mr. Edwards. I have heard that is more than the National 
Park System, but we can check that out. 360 million days. And I 
know these are tough budget times. And I don't know how you do 
the cost-benefit analysis of parks, but I would just want to be 
one person to emphasize at a time when our economy is 
struggling, people have lost jobs, can't afford to get on a 
plane and fly to Cancun for their family vacation I hope we 
don't completely lose sight of the importance of our parks for 
day-to-day families. They are the national parks for most, the 
vast majority of American citizens.
    In regard to the Harbor Maintenance Trust Fund, is 100 
percent of the dollars collected last year, this year, next 
year in the Harbor Maintenance Trust Fund, are those put back 
into maintenance and operations of our harbors and, if not, 
what percent is it?
    Ms. Darcy. No, 100 percent is not put back in. In this 
budget I believe $783 million is going to be used from the 
receipts collected last year.
    Mr. Edwards. What were the receipts? What percent is that?
    Ms. Darcy. $1.5 billion is what was collected.
    Mr. Edwards. So half, half the money is not being used. Why 
is that? Let me put it this way. Isn't it correct that there 
are a number of our ports in the United States that are not 
being dredged at their authorized levels and therefore we are 
creating economic inefficiencies, making it less competitive 
for our country to compete with foreign countries and driving 
up prices for consumers? Aren't there a number of ports that 
aren't at authorized levels?
    General Van Antwerp. We have about 926 ports and harbors; 
299 of those are deep water.
    Mr. Frelinghuysen. If you can put your microphone a little 
closer.
    General Van Antwerp. Of all those ports and harbors about 
35 percent are dredged at any one time to the prescribed width 
and depth, as was in the Chief's report or the report that 
authorized the project.
    Mr. Edwards. So 35 percent are at the authorized dredge 
level.
    General Van Antwerp. Right.
    Mr. Edwards. So that means 65 percent are not.
    General Van Antwerp. Right.
    Mr. Edwards. And is the 50 percent figure, percentage use 
of the revenues from the Harbor Trust Fund, is that 
traditional, is that what it usually has been or is that a 
trend going up or down?
    General Van Antwerp. I think it is fairly standard for 
every year. It is about 50 percent of what we take in. The 
trust fund now has over $4 billion in it.
    Mr. Edwards. And who makes the decision? Is this an OMB 
decision to say we are only going to use 50 percent of the 
funds that are collected? These are funds collected by the 
companies and entities using the ports, is that correct?
    General Van Antwerp. Correct. It is a tax.
    Mr. Edwards. So we are just basically giving them $0.50 
back for every dollar they are paying in a fee or tax, is that 
correct?
    Ms. Darcy. For the port maintenance?
    Mr. Edwards. Is that an OMB decision?
    Ms. Darcy. It is an Administration decision.
    Mr. Edwards. I think I know what the answer is, but I don't 
want to get anybody in trouble. Well, you know, Mr. Chairman, I 
hope that maybe at some point we could take a look at what are 
the economic costs to businesses in the United States for not 
having our ports dredged at the authorized levels, and that 
ought to be looked at.
    Thank you very much.
    Mr. Pastor. I would agree with you because one of the 
things I have learned coming from the Southwest, my expectation 
is the big one is going to come out in California and I will 
have a port of Yuma. But in the meantime learning more about 
the ports that we have in Houston and Brownsville and L.A. If 
you go in the East Coast, it is just that we just need to do 
more. And it is a problem that we need to solve collectively. 
And then you look at the waterways, inland waterways, and that 
is another that we need to look at. So I agree with you that 
maybe for sometime in the future we need to come back and say 
what are the possibilities and the probabilities that we can 
address these issues.
    Mr. Edwards. Thank you, Mr. Chairman.
    Mr. Pastor. And we have Governor.
    Mr. Wamp. Thank you, Mr. Chairman.
    Secretary Darcy, I read extensively your history and I 
assume that one of the main reasons that President Obama 
appointed you is because of your environmental expertise and 
focus on doing things cleaner and more efficient. And I hope 
you will be a warrior for our navigation systems in the Inland 
Waterway System because of how much cleaner they are than the 
other modes of transportation in our country. And it means you 
have got to be willing to box OMB from time to time on behalf 
of this entire system, which is clean but it is in real 
trouble. And ironically you are now partnered with some of the 
toughest guys in America who like big rocks and things. But it 
is a good partnership, and I hope you will do some good work 
while you are there.
    For 14 years right here at this committee I have pled with 
everyone to try to keep the Tennessee River open to navigation 
and commerce because the Chickamauga Lock, which is now 70 
years old, is one of the top priorities from the users, from 
the Corps, the entire system now with a 6 to 1 cost-benefit 
ratio, twice as high as Olmsted, twice as high as Kentucky 
Lock, and we are going to be stalled out. We have a zero in 
this budget request, zero, despite the fact that we are on the 
funding profile a third of the way through construction, we 
have a coffer dam complete now in the middle of the Tennessee 
River waiting to be dried out and tested this spring. It is 
like 10 football fields in the middle of the Tennessee River 
going to be dry all the way to the bottom of the river ready to 
pour footings, yet we don't have the go ahead to move forward. 
We have $58 million worth of stimulus money that has bought the 
gates and the steel ready to install them, and they are going 
to move that to Muscle Shoals to store it until we can start 
the project.
    I understand the technicalities because of the insolvency 
of the trust fund. But we now have an agreement from the users 
that they will put up more money to make the trust fund more 
solvent. There is a proposal before the Water Resources 
Development Subcommittee so that the WRDA bill could 
potentially fix this problem statutorily so we would have a 
road map to go forward with, with new revenues into the trust 
fund, reclassify Olmsted, which has been like Pac-Man gobbling 
up all the money in the trust fund, way over budget, way past 
due, but it needs to be moved into a different category. In 
your budget request, $68 million out of $82 million from the 
trust fund in your budget request all goes to Olmsted. 
Everybody else has crumbs on the table, and we are going to be 
stopped, stopped. And this is a high priority project. It is 
called the Chickamauga Lock.
    I have said it over and over and over again. Now I have got 
a partner down there named Lincoln Davis on this subcommittee, 
and when I am gone at the end of this year he is going to 
continue to stay until we finish the project. But we started 
it. It is a high priority project. I need your help. We need 
everyone's help on this, and we need a WRDA bill that allows us 
to go forward with this agreement that has been put forth by 
the users to make the trust fund more solvent, reclassify some 
of the projects and make these projects or allow these projects 
to go forward.
    How ironic that we have stimulus money buying the equipment 
and you can't pour footings in the middle of the river. As a 
matter of fact after they test the coffer dam they are going to 
fill it back up with water and wait for the Congress, the 
executive branch, OMB, the leadership of our country. Wait. And 
it will be the largest lock closure in the history of our 
country, the highest cargo passage to close. I hope we are not 
all responsible for that outcome.
    So tell me how we are going to get this fixed with your 
support.
    Ms. Darcy. Congressman, I am aware of the Inland Waterway 
Users Board's work on coming up with a solution to the 
dwindling revenues coming into the Inland Waterway Trust Fund, 
and I look forward to receiving that. I am told that soon it 
will be presented up to my office.
    The Administration is committed to finding a mechanism for 
us to move forward on getting that trust fund up and running to 
meet the needs of the Inland Waterway Trust Fund and the inland 
waterway navigation.
    Mr. Wamp. For the good of our colleagues here because we 
have seen many people come and go through the years, many of 
us, we need the administration to support a Water Resources 
Development Act, to push for it like they are pushing for 
health care, whatever the other priorities are. We see no 
prioritization of that. And the Congress needs to hear that 
from the administration that we do want to fix these problems 
in the Inland Waterway System. You have to have a WRDA bill to 
do it statutorily, otherwise we are operating without the 
authorization and it stops. And this committee has to follow 
that authorization. I would cry out to the administration to 
take a leadership position on this issue, which we are not 
seeing.
    Ms. Darcy. Well, I am hearing you, sir.
    Mr. Wamp. Thank you. He has been there, the chairman here, 
the former chairman has been there. Anyway, you should see it. 
It is crumbling. It is crumbling. We may have to close the 
lock. As a matter of fact the Corps of Engineers basically 
already notified the Tennessee Valley Authority that there will 
be a point at which they have to actually close the lock, and 
that is because we are at this point. It is a critical thing 
for the entire Inland Waterway System.
    General, do you want to comment before my 5 minutes is up 
or it is up?
    Mr. Pastor. No, go ahead.
    General Van Antwerp. I would say, yes, we have to schedule 
maintenance and do it regardless, because it is going to take 
time to build it obviously. But you are exactly right what you 
have said. You were right that there is $82 million that is 
coming out of the trust fund. About $153 million is the total 
when we put the two parts together. We think that we could use 
twice that because of the infrastructure we think. So if the 
Inland Waterway User Board comes up with a solution that would 
get us to the $350 million mark, that would be very 
appropriate.
    Mr. Wamp. Well, the solution is on the table. We need OMB 
to say yes, we need the administration to take a lead, and we 
need a call to the Congress to get a Waterway Resources 
Development Act so we can make this statutory.
    Thank you, Mr. Chairman.
    Mr. Pastor. Thank you. Steve.
    Mr. Israel. Thank you very much, Mr. Chairman. I am going 
to ask the subcommittee's indulgence because I have to raise a 
very local issue in my district, and the reason I have to raise 
it here is because I have been trying to facilitate a problem 
with the Army Corps on Long Island for 18 months, and it has 
been frustrating because I am caught in between the defiance of 
a local power company and the seeming powerlessness of the Army 
Corps to enforce its own permits. If I don't raise it here in 
the presence of the senior leadership of the Army Corps, I 
would be doing a disservice to my district. And secondly, if it 
is happening in my district it is probably happening elsewhere.
    So permit me to lay out the facts for you. I don't expect 
you to have a specific response here, but I do expect you to 
come back to me within a very short period of time and let me 
know how we are going to solve this.
    I represent a community called Asharoken on the north shore 
of Long Island. There is a major power plant there. That power 
plant has been displacing sand from the beaches of Asharoken. 
The Army Corps directed the owner of that power plant, National 
Grid, to place 15,000 cubic yards of sand a year to replenish 
the beach and 25,000 cubic yards of sand immediately. National 
Grid has defied the Army Corps of Engineers for the past 18 
months. The Army Corps issued a permit. National Grid has 
stalled. They have played games. The Army--I have to tell you, 
you have a guy there who is just extraordinary, a guy named 
Gene Brickman. I have the highest regard for him. He is a good 
man. He is doing the best he can. But you have a local company 
that is defying a Member of Congress, defying the Army Corps of 
Engineers. And the question I have, when you issue a permit 
directing someone to place sand on a beach and that company 
defies your directives, how do you implement the conditions of 
your permit?
    You want $30 million for flood control and coastal 
emergencies. Why should I support additional funding for flood 
control and coastal emergencies when in my district the Army 
Corps seems absolutely impotent to enforce the terms of its own 
permits. That is the macro question. That is a policy question. 
The specific question is how long will it take you, General, to 
come back to me and say I have reviewed it and here is the 
course of action, either we are going to litigate, or here are 
the other courses of action available to the Army Corps to 
enforce the conditions of its own permit?
    General Van Antwerp. I will commit to you, Congressman, to 
come back in 30 days. I am looking at Duke DeLuca over here.
    Mr. Israel. Who is also a good man.
    General Van Antwerp. Right. The New York District 
Commander. I don't know if he is here in the room. But we will 
come back to you in 30 days. There are enforcement options, 
things to do. But I think the first thing we are going to see 
is what does the permit say, what are they doing or not doing, 
and then we will come back to you within 30 days.
    Mr. Israel. 30 days is acceptable, thank you. And we have 
the permit right here, and my assistant will give it to you, 
Mr. DeLuca. And if we can work within that time frame, that 
will be helpful. Thank you.
    I yield back, Mr. Chairman.
    Mr. Pastor. Thank you.
    Mr. Rehberg. Thank you, Mr. Chairman. And welcome. And as 
you probably know, I am sure, we have a very good working 
relationship with the Corps in Montana and thank you so much. 
My question of course you probably know all about, and that is 
St. Mary's Water Project, because I am not sure that you didn't 
suggest it to Senator Baucus in the first place.
    Ms. Darcy. I worked for Senator Baucus.
    Mr. Rehberg. I know you did. And while I appreciate Senator 
Baucus being able to get the St. Mary's Water Project into the 
WRDA bill, it also created a new problem, and that is it never 
gets done. It probably would have been more appropriately 
placed in the Bureau of Rec, but we couldn't get it 
accomplished there and so it is a new start.
    So I would like to start by suggesting or asking of the $2 
billion in the stimulus package under construction or under the 
$4.6 billion were there any new starts funded, constructed, or 
reconstructed?
    Ms. Darcy. No, sir.
    Mr. Rehberg. No. I heard in your opening statement that 
there are new starts in the President's budget, correct?
    Ms. Darcy. Correct.
    Mr. Rehberg. Do you have a list of the criteria that 
allowed the opportunity for certain new starts to be put at the 
top of the list and others that are authorized not to make that 
new start list.
    Ms. Darcy. I don't have a list in my hand, but I can 
provide you with that list for the criteria that we used to 
select the two new starts.
    Mr. Rehberg. So I would be able to see where St. Mary's, 
which was authorized in the 2007 WRDA bill, where it stands as 
far as priority within the Corps of Engineers within the 
President's budget, so that we can have some indication if we 
are ever going to make the list, or if we are ever going to 
make it to the top of the list.
    Ms. Darcy. It is my understanding that the project purpose 
is irrigation and water supply, and that is not something that 
we usually budget for.
    Mr. Rehberg. Not necessarily. Frankly, what is going to 
happen, and if your background and love and passion is the 
environment, if it fails, which we all anticipate it is going 
to fail. It will be an international scandal, just not a 
national environmental scandal because it occurs both on an 
Indian reservation, it is the tributary to a lot of communities 
within Montana, but it also flows into Canada and so it will be 
an environmental problem more than--perhaps the construction 
deals with irrigation, but it is also drinking water, and so it 
is a little more complicated than just the irrigation acreage.
    Real quickly. Do I still have some time, Mr. Chairman?
    Mr. Pastor. Sure.
    Mr. Rehberg. Inspection of completed works, I don't 
understand the concept or the appropriations within your 
budget. You wouldn't think that Montana has a huge levee 
problem, although we find ourselves in the same dilemma that 
some of the other States do on the recertification of levees 
and the whole mapping with FEMA. I have got a situation around 
the Great Falls area. We are having some difficulty getting a 
recertification. And we have been told it is a liability issue.
    Could you tell me the Corps' perspective and how do we--I 
am sure it is a bigger problem than just Montana--how do you 
intend to deal with this, because we can't just ignore the 
recertification of the levees because all of a sudden we are 
going to find ourselves dumping the cost on cities, homeowners, 
flood insurance, and you know the issue. I find myself in 
Montana dealing with levees, and I frankly think that is more 
Rodney's problem in Louisiana than mine, but it is now my 
problem.
    General Grisoli. Mr. Rehberg, you asked a great question 
and a very challenging and complex one. And if I may, I would 
like to take a few moments and frame a little bit of the 
challenges that you just mentioned because it is of interest to 
all of us, and then try to address some of those particular 
issues.
    First of all, when you take a look at our Nation's levees, 
you have the levees that the Corps built and maintained, and 
what I am going to mention is really four categories. The 
second would be the levees that the Corps has built and they 
are maintained by our sponsors. You have some levees in a 
category that have been admitted to a Public Law 84-99 program. 
That group right there is about 4,000 miles of levee. Then you 
have about 100 miles of levees, when we start looking at the 
national levee program, that we would like to be able to at 
least put into a database and know what they are.
    But let's go back to those first three categories. Those 
first three categories, what the Corps is trying to do with the 
dollars they receive from ARRA, and in this particular budget, 
is to survey those and inspect those and get them online in a 
database.
    Mr. Rehberg. Is that the operation and maintenance budget 
or some other budget?
    General Grisoli. That would be an operations and 
maintenance budget for that piece there. For those levees 
there, we can use Inspection of Completed Works, if we budget 
approximately $25 million, as we talked about today. The 
challenge of O&M funds and where those funds go are a unique 
challenge. We have a certification program. A certification 
program is all about flood insurance. Flood insurance is 
something that needs to be worked out with FEMA. Let's go 
through those categories again. If it is a Corps built, Corps 
maintained levee, the Corps would prepare the paperwork and 
submit it to FEMA, they would accredit that particular levee. 
If they are levees that are in the Corps built, sponsor 
maintained [category], the sponsor would then be required to 
request certification, and the certification would then either 
get accredited or not by FEMA. The last category is pretty much 
the same way.
    When the Corps takes a look at all this we are ensuring 
that, first of all, we get the information properly into the 
database, and that database is available to all of the 
constituents. We will make that available if they need to get 
their levees accredited. But the Corps' main function is not 
one of accrediting and working towards flood insurance; 
therefore when we take a look at this overall, it is not a high 
priority as far as accreditation. And we have pushed to ensure 
that we have the data available, but we do not have the program 
funds available to be able to accredit all the levees--does 
that help?
    Mr. Rehberg. Mr. Chairman, I just wanted to point that 
problem out because it is coming to a head and somebody is 
going to have to deal with it because it is not going to go 
away. It is a huge problem, not so much for me. It is a 
thousand houses and that is important to me, but to some other 
areas it is going to be an incredible expense. Especially if 
FEMA gets done with their mapping or doesn't get done with 
their mapping; and they just ignore the fact that the levee is 
there. It is as if the levee does not exist. And then there is 
no way other than flood insurance to protect the individual 
landowner. So we are headed for a wreck here if we don't do 
something.
    Mr. Pastor. I appreciate the questions. We have been 
informed that possibly anywhere between 3:00 and 3:15 we may 
have a series of votes. And I don't know how many votes it will 
be. And we have three members who have not had at least 
questions in the first round. We will try to at least allow 
those three members to have their 5 minutes, give or take a 
little bit. And then we will see where we are at and then we 
will make a decision from there.
    So I think, Marion Berry.
    Mr. Berry. Thank you, Mr. Chairman. Madam Secretary, and 
General Van Antwerp, General Grisoli, Gary, welcome. I think we 
all appreciate very much what the Corps of Engineers does and 
the contribution that you make around the world to make 
somebody's life better and easier to endure. And I have always 
considered myself, as I have told you, Madam Secretary, I am 
sure, the biggest fan of the Corps of Engineers. I live in a 
place where we receive a minimum of 50 inches of rainfall a 
year, and this year we went over 80 inches, and every square 
inch of my district is considered a wetlands by somebody.
    But what I want to address today is the same problem that 
my colleague from Montana just brought up. The way this 
certification is taking place defies hydrology. It is not a 
logical process. These levees, they are Federal levees 
maintained by Federal money under the supervision of the Corps 
of Engineers, and there has never to my knowledge been a 
failure of one of them anytime. And yet they are being 
decertified and creating a situation where homeowners are 
suddenly being required to add $1,200 to $1,500, depending on 
the value of their home, to the cost of owning that home 
immediately, and it is hitting people in the face like a bat.
    Has there been any public input as these regulations have 
been developed? I am not aware if there has. If there has, I 
think we need to do it again. If there has not, I think we need 
to have some hearings and some forums about this. Because I 
think we are creating something here that is going to have an 
economic consequence that cannot be carried. And I just plead 
with you to let's go back and take a new look at the way this 
is being done. And they are declaring people have to buy flood 
insurance that the 1927 flood didn't even bother. And that does 
not make sense to me.
    So if you all can do that, I would really appreciate it. 
And I would ask you to work with us.
    We have here with us today from the St. Francis Levee 
District, their Chief Engineer, Rob Rash, and he knows more 
about that stuff than anybody I have ever known. And he will 
bore you to death talking about it, but he is an expert that 
needs to be heard.
    Thank you.
    Mr. Pastor. Mr. Alexander.
    Mr. Alexander. Thank you, Mr. Chairman. Madam Secretary, 
and gentlemen, I too would like to thank you for the way you 
have worked with our office. General Walsh and his Vicksburg 
bunch have been great to work with. They have been very 
responsive any time we have called upon them. And I want to 
continue the dialogue that Congressman Rehberg and Congressman 
Berry have talked about.
    This is something that is going to affect everybody here. 
And General, when you said that accreditation wasn't a top 
priority, I can assure you that it is my top priority and I am 
going to see if we can get as many colleagues as possible to 
take that same stance. Because this is not just a problem for 
Louisiana or Montana or Arkansas, this is a national problem. 
881 counties or parishes in Louisiana we are told are protected 
by the levee system. 35 percent of the land mass, but almost 60 
percent of the population. And if we advance in the direction 
that I see us going, and the Corps of Engineers and FEMA do get 
to the point of not certifying those levees at some point in 
the future; we are talking just a few months away, and FEMA 
redraws those maps as if those levees don't exist; then we are 
going to have some homeowners--and we are told about 60 percent 
of homeowners out there--with mortgages today, those mortgages 
are backed in some way by the Federal Government, they are 
going to be exposed to insurance premiums that will be left 
just up to the imagination. Insurance agents and FEMA can tell 
us what those insurance premiums are today, but if they are 
presented a flood map with no levees on them, then one can only 
imagine what those premiums are going to be. This is going to 
be a massive tax increase for those living out there behind 
those levees.
    Now, what makes it even more confusing to me is that I have 
1,100 miles of navigable river in the district that I 
represent, 350 miles of the Mississippi River. And I talked to 
the Corps and they say, well, we are responsible for the levee 
on this side of the river, but we are not on that side. If you 
go a little bit down the river we are responsible for it on 
both sides. Well, we have a bank cave-in down there; but we are 
not authorized to fix that. We are authorized to fix the next 
one, but we don't have any money to do it with.
    Help us understand what we need to do to help you all. I 
feel like you all want to solve the problem. But this is the 
problem that is going to be bigger than anything that has 
jumped up on those that we represent out there. There are some 
people along the Gulf Coast today that are already paying 
$5,000 a year for flood insurance, and it is unbelievable what 
they might be subjected to.
    Now I appreciate the work that you are doing in advancing 
the cause of recovering the Gulf Coast, but we don't care 
whether the Gulf Coast is there or not if we can't live in 
Louisiana. If we have to move somewhere else what difference 
does it make?
    It is a serious, serious problem that is not going to go 
away, and it is only going to get worse. We are having public 
meetings in my district. I am encouraging other members to 
start the same thing and let the public know what is about to 
come down.
    Thank you.
    Mr. Pastor. Mr. Davis.
    Mr. Davis. Mr. Chairman, thank you. I have two or three 
questions, but a brief comment before I ask those questions.
    A century ago our Nation started an ambitious program in 
infrastructure. Anywhere you go today, you turn on the faucet, 
a lot of it comes from Corps of Engineers or TEA, basically 
Corps of Engineers lakes that were built. 20s, 30s, 40s, 50s, 
60s, early 70s they were started. We had an ambitious program 
for energy called nuclear energy as well as hydro energy, an 
ambitious program to build an interstate system, space.
    In the last 30 years we have done nothing except go in 
debt. Borrow more money, spend more money, borrow more money, 
spend money with no plans whatsoever. We have increased our 
national debt by a thousand percent since 1980 and haven't done 
a single thing in infrastructure. And what we are talking about 
today is our fear as Members of Congress that that 
infrastructure we built, 30, 40, 50, 60 years ago, the dams 
near where I live are deteriorating and are about to collapse. 
It seems the last 30 or 40 years we had no interest in building 
infrastructure or even repairing infrastructure.
    So my question to you is this: What is the Corps of 
Engineers doing in these major developments that gave us an 
unbelievable edge in economic opportunity? Interstate systems, 
for instance, gave us just-in-time manufacturing other 
countries in the world couldn't compete with us on.
    What would you recommend or have a vision of how we obtain 
the funding that we need to replace, repair, and build an 
infrastructure that again puts us in position where we can 
compete with the rest of the world, including the Chinas and 
the larger populated countries?
    I know we are talking about the trust fund. As we do that, 
I want you to be aware that after you pass the confluence of 
the Mississippi and Ohio, you've got pretty well free sailing 
all the way down to the ocean. So you are not going to be 
paying a tonnage there. If you look at tonnage as the way to 
build a trust fund, then you are shutting down and putting the 
costs so high for the burden of this in the small inland 
waterways that are tributaries to the Mississippi River that 
may prohibit what we need today, a good, clean, reliable source 
of transportation.
    So my hope is as you engage, and the two questions are: 
which do you feel compelled to support, a tonnage or a fuel 
tax?
    The second one is what would you do, how quickly do you 
think, and how much do you think it would take us to actually 
rebuild the infrastructure that we must rebuild to keep this 
country going?
    Ms. Darcy. As Congressman Wamp has already discussed, the 
Inland Waterway Users Board has developed as an alternative 
mechanism to make this trust fund whole. The administration's 
perspective, as I said earlier, is that we want to work with 
the stakeholders to come up with a viable mechanism that can be 
included and passed by the Congress.
    So we need to have not only your support but the support of 
the stakeholders in order to come up with a position to make 
that mechanism workable. As to how much we are going to need in 
the future, just in the waterways alone I think it is in the 
billions of dollars, and I think anything that we do in looking 
forward has to be, whether it is in the WRDA bill or other 
legislative, we have to come up with some innovative ways to 
recapitalize.
    Mr. Davis. A very quick question, if there should come a 
time that the Corps could not continue to maintain Chic Lock 
which impacts both the Fourth and the Third Congressional 
Districts, if that is not possible for you to continue to 
maintain and keep that open, what happens then? Do you think 
that you can actually maintain that adequately and keep it open 
until the construction dollars flow until we can build the 
necessary improvements at the lock to keep the 300 some odd 
miles upstream open?
    General Van Antwerp. We can, but you will find more 
unscheduled outages and more scheduled outages because of what 
it takes to maintain. That is what we find as we look at this 
aging system. We track this very closely. What are the 
unscheduled outages? If it is a scheduled outage, industry will 
work with us. It is those unscheduled ones that are really 
tough because they shut down unexpectedly. And we had a couple 
of lock gates this year where we had those issues.
    So I would say the answer is yes, we will continue to 
maintain it, but we also expect that it will be out of service 
more frequently than it is today, and that continues to go up 
over time until we can build new locks.
    Mr. Wamp. Will the gentleman yield? Just as in the 
Nashville District, your colonel was here, they would say, yes, 
you can, but with a very steep increase in O&M. A very steep 
increase in O&M, and I am not talking about $2 million a year; 
I am talking about 8, 10, 12 million a year to keep it open. We 
are approaching that rapidly now. You have got these post 
tension rods like bullet holes shot all the way down through 
this gate over and over again. Literally dozens, 60 and 70 of 
them. This thing is just patched together to keep it open. So 
it gets really expensive from here on.
    I just want to put that point in.
    General Van Antwerp. I think our decision process of 
whether to build new or do a total renovation gets to that 
question and the recommendation has been made to build new at 
Chic Lock.
    Mr. Davis. You will find those on this committee who will 
continue to have an interest in that to be sure, that part of 
the Tennessee River especially, flows northward in Tennessee 
and will continue the traffic that will be bringing commerce 
and industry from the eastern part of the United States and 
that area that will actually be put on a barge and be shipped 
out across.
    I yield back.
    Mr. Pastor. Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman. And let me thank you, 
Madam Secretary, for the work that you are doing. And let me 
thank you for all of the projects, in and around Philadelphia. 
I know that there has been a lot of talk of exciting and 
productive work that the Corps has done and continues to do, 
and I want to thank you. You are a local team there, but I do 
have a couple of questions.
    In your total personnel, you mentioned the number who are 
in Afghanistan, some 800-and-something. How are they carried 
from a budgetary standpoint? Are they carried in the cost of 
the Corps or are they carried over in the Defense budget?
    General Van Antwerp. When you get down to a district level, 
which is where most of these people are located in Afghanistan; 
for instance, we have two districts, one in the south and one 
in the north. Those 800 people are paid from project funds. 
That is how it works in a District. In a Division and the Corps 
Headquarters, we are paid by general funds. When you 
appropriate for a project or if it is another country, like 
Afghanistan, the funds allocated to that project pay for those 
workers while they are over there.
    Mr. Fattah. Give me the total number of your complement, 
civilian and military, and your total number outside of the 
country in Afghanistan and Iraq and Haiti.
    General Van Antwerp. In general terms we have about 600 
that wear the uniform--this is in the entire Corps of 
Engineers--about 36,000 that wear a suit or a life jacket or a 
hard hat.
    Mr. Fattah. Let me ask you a question about the civilian 
population. In terms of the critical skill shortages going 
forward, you know we have a lot of people who are going to be 
retiring and so on, are you preparing--I was looking through 
your budget document--for the next, you know, I don't know what 
percentage of your key personnel are going to be leaving and 
retiring as part of the baby boom generation. But do you have a 
game plan in terms of person power and skill needs going 
forward?
    General Van Antwerp. We absolutely do. I will just give you 
the fiscal year 2009 figures and can tell you the 2010 will be 
higher. In fiscal year 2009, we hired 8,213 people from outside 
the Corps. We had 4,600 people leave the Corps, including 
retirees. We expect it to be higher in fiscal year 2010 because 
some of the people are----
    Mr. Fattah. I would be very interested if the Corps could 
share with the chairman and then I am sure the staff will make 
sure I get it, information about your manpower game plan or 
your person power game plan going forward.
    General Van Antwerp. We definitely have a game plan to get 
at it.
    Mr. Fattah. Now we are all in agreement in this room. We 
love the Corps and think you are doing important work. I need 
to get some things on the record, Madam Secretary. There has 
been a lot of debate outside this room about the role of 
government. Is there anything about what the Corps is doing in 
the levees, the dams, all of this work on America's 
infrastructure that you perceive to be not properly the role of 
the government or in any way socialistic or anything of this 
notion?
    Ms. Darcy. No, sir.
    Mr. Fattah. When we heard this comment from my great 
colleague from Louisiana about flood insurance, we have a lot 
of debate now about insurance. As I would understand it, there 
is no privately available flood insurance in the country for 
the most part; is that correct? This is a government 
subsidized--a public option flood insurance; right? Is it 
private insurance?
    General Van Antwerp. It is private insurance. Like if the 
levee is not certified----
    Mr. Fattah. We now finance through the agriculture flood 
insurance dollars, right? What is that for?
    General Van Antwerp. You go through your homeowner 
insurance company and your mortgage company, probably you may 
take it out with them. But largely it is private insurance.
    Mr. Fattah. Why are we subsidizing it in the agriculture 
budget? Maybe I could yield to my colleague.
    Mr. Alexander. If the gentleman would yield, let me tell 
you what I see down the road. If these levees are decertified 
and FEMA draws a map saying the levee is being nonexistent, 
then they are going to presented to the person that lives in a 
mortgaged home that is backed by the taxpayers in some form--60 
percent, about--they are going to say okay, you are going to 
pay this amount in insurance premiums for flood insurance if 
you continue living there. And you can buy the insurance from 
us or you can buy it from X, Y, Z company over here that has a 
deal with us. You can buy it from them, but we are going to 
tell them what to charge you.
    Now at the end of the year, if they have made money they 
are going to give it to us and we are going to pay them for the 
operation. If they lose money, we will reimburse you. Now, I 
have sold a lot of things but I can't sell that to the public. 
I have never called it socialism, but what I see about to 
happen is ugly.
    Mr. Fattah. I just want to make sure that we are all clear 
what the Corps is doing. And the other thing I understand from 
your testimony, that we have to find a way to finance this. 
That means that we can't do it for free, that somebody has to 
pay. And so whether we deal with the trust fund issue or the 
user fee proposal that the administration has put forward, 
right, as I just heard you answer my colleague, we are talking 
about billions of dollars. When I am trying to make sure that 
as we go forward the commitment on the spend-down of these 
dollars--what you are dealing with you went through some 
impressive numbers on small businesses and all of these 
projects. When you are working through these contractors are 
there prescriptions in the contract that require these 
contractors when they are buying supplies and self contract 
themselves to also use small business, veteran-owned 
businesses, disadvantaged businesses to buy those supplies from 
other domestically owned companies?
    General Van Antwerp. When we award a contract----
    Mr. Fattah. When you give me a contract for $10 billion.
    General Van Antwerp. If you are a large business, we will 
require you to have a certain percentage of small business 
subcontractors. So that is one way that small business is in 
there. And we follow the Buy American Act. We have restrictions 
on where you can buy the supplies, and a lot of those supplies 
are bought with small business vendors.
    We have a target of 32 percent in the Corps of Engineers 
for small business. Last year we awarded 36 percent to small 
business. In the Recovery Act it has been a much greater 
amount. It is 46 percent of the dollars and about 70 percent of 
the projects.
    Mr. Fattah. You said there are some 6,000 people that have 
been employed through the Recovery Act dollars? Because I heard 
someone in the upper chamber--he was new--saying that not one 
job had been created through the Recovery Act. But you got at 
least 6,000.
    Ms. Darcy. Just in the last quarter.
    General Van Antwerp. The contractors have to report that by 
the way. They have to report jobs created.
    Ms. Darcy. That is where we get our figures.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Pastor. That is why we don't want them to lose those 
jobs that we created. That is why we have to work on this 
budget. Before I recognize Calvert, you had 30 seconds.
    Mr. Wamp. Actually, just 10 seconds. I wanted you to hear, 
Secretary Darcy and General Van Antwerp, one of the victims 
that died under the rubble of Hotel Montana in Haiti was a 
constituent from my district named Diane Cade. Their family and 
all the families would like to honor Colonel Norberto Cintron 
who oversaw that recovery work under the Hotel Montana through 
the Corps of Engineers. And I just got to tell you he did such 
remarkable work. When he would get engaged, the families were 
confident that our country was doing what they could. And 
without him, they were confused and terrified and it was bad 
enough. But I just want to give him credit at this public 
meeting today for an outstanding job in Haiti.
    Mr. Pastor. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. I apologize I was 
late. We have an Interior hearing going on the same time. I 
apologize.
    Madam Secretary, General, thank you for coming. Good to see 
you again. My question is regarding some meetings I had last 
week with some local officials back in California. And more 
than one occasion, as a matter of fact on a number of 
occasions, the issue of 404 permits came up on just simple 
maintenance jobs. For instance, and I know, General, you are 
very much aware of this project, the San Luis Rey Flood Control 
Project has been in the permit process for 7 years just for 
mowing, just for maintenance of that flood control project. And 
thank goodness, we didn't have a major flood event during that 
period. As you know, that would have created significant 
problems.
    Are these delays--I believe these delays are unnecessary. 
It certainly increases the risk to public safety and economic 
damage. And I know this is going on not just in southern 
California, but throughout the United States.
    So my question both to the Secretary and to the Corps, does 
the administration have a position on potential congressional 
efforts to exempt just routine maintenance from the 404 
permitting process where we can just maintain these projects 
without these costly and potentially disastrous delays?
    Ms. Darcy. Congressman, I am not familiar with that 
project. I am not sure if the Chief wants to address it 
directly, but we currently do not have that. It is something 
that we might need to consider.
    General Van Antwerp. I am not familiar with the permit on 
San Luis Rey, but we will definitely check into it. Sometimes 
the permit has to do a lot more with environmental 
considerations, endangered species for example. What seems like 
routine maintenance and maybe even was routine maintenance in 
the past, now has some environmental consequences. That is 
where it really gets difficult.
    Mr. Calvert. As you know, these delays go on and on and on, 
and some people think it reverts back to wetlands and the rest, 
and then you never do the routine maintenance and then you have 
a potential problem on your hand.
    And another question, I know that under the stimulus bill 
you were appropriated about $4.6 billion, 2 billion for 
construction and 2.7 billion for operation and maintenance. As 
I understand, many of these projects are coming in 20, 30 
percent under estimates because of the bid process out there in 
the marketplace.
    Is that a trend all around the country? All of these bids 
coming in about that, 20, 30 percent under?
    General Van Antwerp. This has been an exceptional year. I 
wouldn't say all across the country, but we have gotten very 
good bids on our projects and a lot of our projects have been 
20, 30 percent under the usual amount.
    Mr. Calvert. With that money that you have left over, 
obviously there is going to be substantial dollars left over 
apparently for reallocation or to pay down the debt or 
whatever, what it is your intent to do with those additional 
funds?
    Ms. Darcy. Congressman, we are trying to develop what we 
are calling our backup list to address just that, for either 
projects that have come in under bid or if there are projects 
that we thought were going to be able to go forward but for one 
reason or the other are not going forward. We want to be able 
to have a list so that we will be able to expend and obligate 
those funds before September.
    Mr. Calvert. How will you disclose and notify the public of 
those reallocations? Do you need to go to the chairman and the 
ranking member to ask for a sign-off on those reallocations?
    Ms. Darcy. Not under the stimulus bill, sir.
    Mr. Calvert. This is all done by the Corps?
    Ms. Darcy. It is posted on our Web site, sir.
    Mr. Pastor. OMB.
    Mr. Calvert. That is what I am afraid of, Mr. Chairman.
    Ms. Darcy. It is posted on our Web site and also on the 
Recovery.gov Web site for whatever gets reallocated to 
different projects.
    Mr. Calvert. So we will find out about it when we see it on 
the Web site?
    Ms. Darcy. We have been notifying Members when we have 
reallocations.
    Mr. Calvert. Do you have to run this through OMB first?
    Ms. Darcy. This is an Administration program.
    Mr. Calvert. The answer is yes? You have to run it by OMB 
first?
    Ms. Darcy. We have to comply with the Administration's 
guidance.
    Mr. Pastor. There is a high probability.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Pastor. You are welcome. We have the votes that have 
been called and we have 10 minutes. I want to take a few 
minutes and ask you about the Asian carp, so give me the 3-
minute version. Talk about the money that you have and what you 
are doing with the locks and the lawsuits.
    But what I would like to have is a formal response back so 
that we can share with members who have an interest in the 
Asian carp, and then I will yield to my ranking member.
    Ms. Darcy. I will take that one, Congressman. The Corps of 
Engineers has been involved in trying to keep the Asian carp 
out of the Great Lakes for a number of years now. We started 
back earlier this decade, in 2000 actually, by constructing a 
fish barrier, which was originally designed to keep the gobi 
out of the lakes. Since then the carp have been migrating north 
in the Mississippi and coming close to a lot of the 
tributaries.
    We have constructed fish barriers in the Chicago Sanitary 
and Ship Canal. We have two barriers up and operating and we 
are about to construct a third fish barrier. These are all 
congressionally mandated fish barriers. In addition to that, we 
are working with scientists in ways to determine whether there 
are fish above the barrier. To date we have found no Asian carp 
above our barriers; however, what we have found is what is 
called eDNA evidence, which is evidence that says there is 
possibility that there are carp there. So in addition to what 
we have done already with our fish barriers, we have worked 
with the Council on Environmental Quality, the EPA, the Fish 
and Wildlife Service, the Illinois DNR, and the City of Chicago 
to come up with a framework for all the Federal family as well 
as the locals to come up with a strategy to keep the carp out 
of the lakes.
    In addition, we have authorization to complete an efficacy 
study which is ongoing. The first interim report of that 
efficacy study found that the Corps needed to be able to 
prevent Asian carp coming into the Chicago Sanitary and Ship 
Canal in a flood event from the Des Plaines River. You may not 
be familiar with the hydrology out there, but the Des Plaines 
River is almost parallel to the Chicago Sanitary and Ship Canal 
and in a flood event the Des Plaines River could flood into the 
Chicago Sanitary and Ship Canal and the carp could get in.
    We will be awarding a contract I think within the month to 
build a sort of Jersey barrier between the two and also a mesh 
fence so that in a flood event if carp are there they will not 
be able to get in the Chicago Sanitary and Ship Canal because 
that is the pathway to the lakes.
    In addition, we are also looking at other ways that we can 
help to prevent the carp. We are working really closely, and I 
need to point this out, with the other Federal family because 
in December one of our barriers had to come down for 
maintenance and in order for us to do that we had to work with 
the Illinois DNR and the Fish and Wildlife Service to apply 
rotenone into a 6-mile stretch of the Chicago Sanitary and Ship 
Canal in order to kill whatever fish might be there while we 
took the barrier out for repair.
    That was a very successful event. Again, there were no carp 
found above the barrier. We don't want to assume that they are 
not above the barrier. We are also looking through this 
efficacy study at some other alternatives. The Chicago Lock on 
the Chicago River as well as the O'Brien Lock, are locks that 
we operate for navigation and for flood control, we are looking 
at modifying the operations of those locks so that if we close 
them to navigation for a certain period of time it will reduce 
the numbers of openings that could help to keep the fish out of 
the lake, which is our ultimate goal.
    So we are looking at those modified lock operations as well 
and when we do that we may be looking at some other kinds of 
barriers there, what are called bubble barriers and acoustic 
barriers, which keep the fish scared and they don't go 
anywhere.
    Mr. Pastor. Is it Alice Cooper?
    Mr. Frelinghuysen. Better than New Jersey barriers. Let's 
eliminate that from your vocabulary. We have enough of those on 
the damn highway. Let's not put those there.
    Ms. Darcy. Those are some of our ongoing efforts. The Fish 
and Wildlife Service in partnership with the Illinois DNR are 
in the rivers now. What they are doing is going out to places 
where we have seen a positive indication of eDNA evidence and 
doing electro-fishing and netting in those areas to see if 
these find any carp. As I say, to date we have not found any 
carp. This is on the Web site too, we have what is called the 
Asian Carp Control Strategy that we released about a week and a 
half ago. We have got long-term plans, as well as short-term 
plans.
    Mr. Pastor. There are many members who have a great 
interest in it. And if there are any additional comments, if 
you would submit it to us we would appreciate it. And I want to 
give some time to Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman, a lot of 
questions will be put on the record. I certainly would like, 
and I think committee members, to understand how you are going 
to spend that money for global change type stability. I don't 
need to hear about it now.
    I continue to have concerns about your budgeting for the 
Federal dredgers, McFarland and Weaver. If you are looking for 
cost economics there are pretty extravagant costs to keep those 
things operating.
    I have a lot of questions that relate to the Harbor 
Maintenance Fund. Perhaps the largest question here and perhaps 
this is not necessarily venting, an excellent article in The 
New York Times the other day about China builds, India Frets: 
Developing ports, Influence in South Asia. Where we are as a 
Nation on the East Coast and West Coast and on other coasts of 
the U.S., where we are in terms of our ability to keep our 
ports open for business and competitive. We are going to be 
opening up a widened Panama Canal. And I think that our 
competition is stiff out there, and I hope in the overall 
scheme of things, we keep an eye on that ball, because the 
Chinese are underwriting across the world and sucking up just 
about every asset and mineral known to man. And I just want to 
make sure that we are not left out of the overall equation when 
it comes to access to our Nation's ports.
    So with that, Mr. Chairman, thank you very much for the 
opportunity.
    Mr. Pastor. Thank you very much. Madam Secretary, thank you 
very much.
    Ms. Darcy. Thank you.
    Mr. Pastor. We look forward to working with you and welcome 
aboard. There are many problems but there are great 
opportunities. And so as the future takes us into doing a bill, 
we look for your guidance and your comments. And General, thank 
you for your service. And again we want to thank all the men 
and women who serve at the Corps of Engineers for their 
service, and we look forward to working with you on the field 
and also on this budget. And so this will conclude the hearing.
    Thank you very much.
    Ms. Darcy. Thank you.

    [GRAPHIC] [TIFF OMITTED] T1742A.012
    
    [GRAPHIC] [TIFF OMITTED] T1742A.013
    
    [GRAPHIC] [TIFF OMITTED] T1742A.014
    
    [GRAPHIC] [TIFF OMITTED] T1742A.015
    
    [GRAPHIC] [TIFF OMITTED] T1742A.016
    
    [GRAPHIC] [TIFF OMITTED] T1742A.017
    
    [GRAPHIC] [TIFF OMITTED] T1742A.018
    
    [GRAPHIC] [TIFF OMITTED] T1742A.019
    
    [GRAPHIC] [TIFF OMITTED] T1742A.020
    
    [GRAPHIC] [TIFF OMITTED] T1742A.021
    
    [GRAPHIC] [TIFF OMITTED] T1742A.022
    
    [GRAPHIC] [TIFF OMITTED] T1742A.023
    
    [GRAPHIC] [TIFF OMITTED] T1742A.024
    
    [GRAPHIC] [TIFF OMITTED] T1742A.025
    
    [GRAPHIC] [TIFF OMITTED] T1742A.026
    
    [GRAPHIC] [TIFF OMITTED] T1742A.027
    
    [GRAPHIC] [TIFF OMITTED] T1742A.028
    
    [GRAPHIC] [TIFF OMITTED] T1742A.029
    
    [GRAPHIC] [TIFF OMITTED] T1742A.030
    
    [GRAPHIC] [TIFF OMITTED] T1742A.031
    
    [GRAPHIC] [TIFF OMITTED] T1742A.032
    
    [GRAPHIC] [TIFF OMITTED] T1742A.033
    
    [GRAPHIC] [TIFF OMITTED] T1742A.034
    
    [GRAPHIC] [TIFF OMITTED] T1742A.035
    
    [GRAPHIC] [TIFF OMITTED] T1742A.036
    
    [GRAPHIC] [TIFF OMITTED] T1742A.037
    
    [GRAPHIC] [TIFF OMITTED] T1742A.038
    
    [GRAPHIC] [TIFF OMITTED] T1742A.039
    
    [GRAPHIC] [TIFF OMITTED] T1742A.040
    
    [GRAPHIC] [TIFF OMITTED] T1742A.041
    
    [GRAPHIC] [TIFF OMITTED] T1742A.042
    
    [GRAPHIC] [TIFF OMITTED] T1742A.043
    
    [GRAPHIC] [TIFF OMITTED] T1742A.044
    
    [GRAPHIC] [TIFF OMITTED] T1742A.045
    
    [GRAPHIC] [TIFF OMITTED] T1742A.046
    
    [GRAPHIC] [TIFF OMITTED] T1742A.047
    
    [GRAPHIC] [TIFF OMITTED] T1742A.048
    
    [GRAPHIC] [TIFF OMITTED] T1742A.049
    
    [GRAPHIC] [TIFF OMITTED] T1742A.050
    
    [GRAPHIC] [TIFF OMITTED] T1742A.051
    
    [GRAPHIC] [TIFF OMITTED] T1742A.052
    
    [GRAPHIC] [TIFF OMITTED] T1742A.053
    
    [GRAPHIC] [TIFF OMITTED] T1742A.054
    
    [GRAPHIC] [TIFF OMITTED] T1742A.055
    
    [GRAPHIC] [TIFF OMITTED] T1742A.056
    
    [GRAPHIC] [TIFF OMITTED] T1742A.057
    
    [GRAPHIC] [TIFF OMITTED] T1742A.058
    
    [GRAPHIC] [TIFF OMITTED] T1742A.059
    
    [GRAPHIC] [TIFF OMITTED] T1742A.060
    
    [GRAPHIC] [TIFF OMITTED] T1742A.061
    
    [GRAPHIC] [TIFF OMITTED] T1742A.062
    
    [GRAPHIC] [TIFF OMITTED] T1742A.063
    
    [GRAPHIC] [TIFF OMITTED] T1742A.064
    
    [GRAPHIC] [TIFF OMITTED] T1742A.065
    
    [GRAPHIC] [TIFF OMITTED] T1742A.066
    
    [GRAPHIC] [TIFF OMITTED] T1742A.067
    
    [GRAPHIC] [TIFF OMITTED] T1742A.068
    
    [GRAPHIC] [TIFF OMITTED] T1742A.069
    
    [GRAPHIC] [TIFF OMITTED] T1742A.070
    
    [GRAPHIC] [TIFF OMITTED] T1742A.071
    
    [GRAPHIC] [TIFF OMITTED] T1742A.072
    
    [GRAPHIC] [TIFF OMITTED] T1742A.073
    
    [GRAPHIC] [TIFF OMITTED] T1742A.074
    
    [GRAPHIC] [TIFF OMITTED] T1742A.075
    
    [GRAPHIC] [TIFF OMITTED] T1742A.076
    
    [GRAPHIC] [TIFF OMITTED] T1742A.077
    
    [GRAPHIC] [TIFF OMITTED] T1742A.078
    
    [GRAPHIC] [TIFF OMITTED] T1742A.079
    
    [GRAPHIC] [TIFF OMITTED] T1742A.080
    
    [GRAPHIC] [TIFF OMITTED] T1742A.081
    
    [GRAPHIC] [TIFF OMITTED] T1742A.082
    
    [GRAPHIC] [TIFF OMITTED] T1742A.083
    
    [GRAPHIC] [TIFF OMITTED] T1742A.084
    
    [GRAPHIC] [TIFF OMITTED] T1742A.085
    
    [GRAPHIC] [TIFF OMITTED] T1742A.086
    
    [GRAPHIC] [TIFF OMITTED] T1742A.087
    
    [GRAPHIC] [TIFF OMITTED] T1742A.088
    
    [GRAPHIC] [TIFF OMITTED] T1742A.089
    
    [GRAPHIC] [TIFF OMITTED] T1742A.090
    
    [GRAPHIC] [TIFF OMITTED] T1742A.091
    
    [GRAPHIC] [TIFF OMITTED] T1742A.092
    
    [GRAPHIC] [TIFF OMITTED] T1742A.093
    
    [GRAPHIC] [TIFF OMITTED] T1742A.094
    
    [GRAPHIC] [TIFF OMITTED] T1742A.095
    
    [GRAPHIC] [TIFF OMITTED] T1742A.096
    
    [GRAPHIC] [TIFF OMITTED] T1742A.097
    
    [GRAPHIC] [TIFF OMITTED] T1742A.098
    
    [GRAPHIC] [TIFF OMITTED] T1742A.099
    
    [GRAPHIC] [TIFF OMITTED] T1742A.100
    
    [GRAPHIC] [TIFF OMITTED] T1742A.101
    
    [GRAPHIC] [TIFF OMITTED] T1742A.102
    
    [GRAPHIC] [TIFF OMITTED] T1742A.103
    
    [GRAPHIC] [TIFF OMITTED] T1742A.104
    
    [GRAPHIC] [TIFF OMITTED] T1742A.105
    
    [GRAPHIC] [TIFF OMITTED] T1742A.106
    
    [GRAPHIC] [TIFF OMITTED] T1742A.107
    
    [GRAPHIC] [TIFF OMITTED] T1742A.108
    
    [GRAPHIC] [TIFF OMITTED] T1742A.109
    
    [GRAPHIC] [TIFF OMITTED] T1742A.110
    
    [GRAPHIC] [TIFF OMITTED] T1742A.111
    
    [GRAPHIC] [TIFF OMITTED] T1742A.112
    
    [GRAPHIC] [TIFF OMITTED] T1742A.113
    
    [GRAPHIC] [TIFF OMITTED] T1742A.114
    
    [GRAPHIC] [TIFF OMITTED] T1742A.115
    
    [GRAPHIC] [TIFF OMITTED] T1742A.116
    
    [GRAPHIC] [TIFF OMITTED] T1742A.117
    
    [GRAPHIC] [TIFF OMITTED] T1742A.118
    
    [GRAPHIC] [TIFF OMITTED] T1742A.119
    
    [GRAPHIC] [TIFF OMITTED] T1742A.120
    
    [GRAPHIC] [TIFF OMITTED] T1742A.121
    
    [GRAPHIC] [TIFF OMITTED] T1742A.122
    
    [GRAPHIC] [TIFF OMITTED] T1742A.123
    
    [GRAPHIC] [TIFF OMITTED] T1742A.124
    
    [GRAPHIC] [TIFF OMITTED] T1742A.125
    
    [GRAPHIC] [TIFF OMITTED] T1742A.126
    
    [GRAPHIC] [TIFF OMITTED] T1742A.127
    
    [GRAPHIC] [TIFF OMITTED] T1742A.128
    
    [GRAPHIC] [TIFF OMITTED] T1742A.129
    
    [GRAPHIC] [TIFF OMITTED] T1742A.130
    
    [GRAPHIC] [TIFF OMITTED] T1742A.131
    
    [GRAPHIC] [TIFF OMITTED] T1742A.132
    
    [GRAPHIC] [TIFF OMITTED] T1742A.133
    
    [GRAPHIC] [TIFF OMITTED] T1742A.134
    
    [GRAPHIC] [TIFF OMITTED] T1742A.135
    
    [GRAPHIC] [TIFF OMITTED] T1742A.136
    
    [GRAPHIC] [TIFF OMITTED] T1742A.137
    
    [GRAPHIC] [TIFF OMITTED] T1742A.138
    
    [GRAPHIC] [TIFF OMITTED] T1742A.139
    
    [GRAPHIC] [TIFF OMITTED] T1742A.140
    
    [GRAPHIC] [TIFF OMITTED] T1742A.141
    
    [GRAPHIC] [TIFF OMITTED] T1742A.142
    
    [GRAPHIC] [TIFF OMITTED] T1742A.143
    
    [GRAPHIC] [TIFF OMITTED] T1742A.144
    
    [GRAPHIC] [TIFF OMITTED] T1742A.145
    
    [GRAPHIC] [TIFF OMITTED] T1742A.146
    
    [GRAPHIC] [TIFF OMITTED] T1742A.147
    
    [GRAPHIC] [TIFF OMITTED] T1742A.148
    
    [GRAPHIC] [TIFF OMITTED] T1742A.149
    
    [GRAPHIC] [TIFF OMITTED] T1742A.150
    
    [GRAPHIC] [TIFF OMITTED] T1742A.151
    
    [GRAPHIC] [TIFF OMITTED] T1742A.152
    
    [GRAPHIC] [TIFF OMITTED] T1742A.153
    
    [GRAPHIC] [TIFF OMITTED] T1742A.154
    
    [GRAPHIC] [TIFF OMITTED] T1742A.155
    
    [GRAPHIC] [TIFF OMITTED] T1742A.156
    
    [GRAPHIC] [TIFF OMITTED] T1742A.157
    
    [GRAPHIC] [TIFF OMITTED] T1742A.158
    
    [GRAPHIC] [TIFF OMITTED] T1742A.159
    
    [GRAPHIC] [TIFF OMITTED] T1742A.160
    
    [GRAPHIC] [TIFF OMITTED] T1742A.161
    
    [GRAPHIC] [TIFF OMITTED] T1742A.162
    
    [GRAPHIC] [TIFF OMITTED] T1742A.163
    
    [GRAPHIC] [TIFF OMITTED] T1742A.164
    
    [GRAPHIC] [TIFF OMITTED] T1742A.165
    
    [GRAPHIC] [TIFF OMITTED] T1742A.166
    
    [GRAPHIC] [TIFF OMITTED] T1742A.167
    
    [GRAPHIC] [TIFF OMITTED] T1742A.168
    
    [GRAPHIC] [TIFF OMITTED] T1742A.169
    
    [GRAPHIC] [TIFF OMITTED] T1742A.170
    
    [GRAPHIC] [TIFF OMITTED] T1742A.171
    
    [GRAPHIC] [TIFF OMITTED] T1742A.172
    
    [GRAPHIC] [TIFF OMITTED] T1742A.173
    
    [GRAPHIC] [TIFF OMITTED] T1742A.174
    
    [GRAPHIC] [TIFF OMITTED] T1742A.175
    
    [GRAPHIC] [TIFF OMITTED] T1742A.176
    
    [GRAPHIC] [TIFF OMITTED] T1742A.177
    
    [GRAPHIC] [TIFF OMITTED] T1742A.178
    
    [GRAPHIC] [TIFF OMITTED] T1742A.179
    
    [GRAPHIC] [TIFF OMITTED] T1742A.180
    
    [GRAPHIC] [TIFF OMITTED] T1742A.181
    
    [GRAPHIC] [TIFF OMITTED] T1742A.182
    
    [GRAPHIC] [TIFF OMITTED] T1742A.183
    
    [GRAPHIC] [TIFF OMITTED] T1742A.184
    
    [GRAPHIC] [TIFF OMITTED] T1742A.185
    
    [GRAPHIC] [TIFF OMITTED] T1742A.186
    
    [GRAPHIC] [TIFF OMITTED] T1742A.187
    
    [GRAPHIC] [TIFF OMITTED] T1742A.188
    
    [GRAPHIC] [TIFF OMITTED] T1742A.189
    
    [GRAPHIC] [TIFF OMITTED] T1742A.190
    
    [GRAPHIC] [TIFF OMITTED] T1742A.191
    
    [GRAPHIC] [TIFF OMITTED] T1742A.192
    
    [GRAPHIC] [TIFF OMITTED] T1742A.193
    
    [GRAPHIC] [TIFF OMITTED] T1742A.194
    
    [GRAPHIC] [TIFF OMITTED] T1742A.195
    
    [GRAPHIC] [TIFF OMITTED] T1742A.196
    
    [GRAPHIC] [TIFF OMITTED] T1742A.197
    
    [GRAPHIC] [TIFF OMITTED] T1742A.198
    
    [GRAPHIC] [TIFF OMITTED] T1742A.199
    
    [GRAPHIC] [TIFF OMITTED] T1742A.200
    
    [GRAPHIC] [TIFF OMITTED] T1742A.201
    
    [GRAPHIC] [TIFF OMITTED] T1742A.202
    
    [GRAPHIC] [TIFF OMITTED] T1742A.203
    
    [GRAPHIC] [TIFF OMITTED] T1742A.204
    
    [GRAPHIC] [TIFF OMITTED] T1742A.205
    
    [GRAPHIC] [TIFF OMITTED] T1742A.206
    
    [GRAPHIC] [TIFF OMITTED] T1742A.207
    
    [GRAPHIC] [TIFF OMITTED] T1742A.208
    
    [GRAPHIC] [TIFF OMITTED] T1742A.209
    
    [GRAPHIC] [TIFF OMITTED] T1742A.210
    
    [GRAPHIC] [TIFF OMITTED] T1742A.211
    
    [GRAPHIC] [TIFF OMITTED] T1742A.212
    
    [GRAPHIC] [TIFF OMITTED] T1742A.213
    
    [GRAPHIC] [TIFF OMITTED] T1742A.214
    
    [GRAPHIC] [TIFF OMITTED] T1742A.215
    
    [GRAPHIC] [TIFF OMITTED] T1742A.216
    
    [GRAPHIC] [TIFF OMITTED] T1742A.217
    
    [GRAPHIC] [TIFF OMITTED] T1742A.218
    
    [GRAPHIC] [TIFF OMITTED] T1742A.219
    
    [GRAPHIC] [TIFF OMITTED] T1742A.220
    
    [GRAPHIC] [TIFF OMITTED] T1742A.221
    
    [GRAPHIC] [TIFF OMITTED] T1742A.222
    
    [GRAPHIC] [TIFF OMITTED] T1742A.223
    
    [GRAPHIC] [TIFF OMITTED] T1742A.224
    
    [GRAPHIC] [TIFF OMITTED] T1742A.225
    
    [GRAPHIC] [TIFF OMITTED] T1742A.226
    
    [GRAPHIC] [TIFF OMITTED] T1742A.227
    
    [GRAPHIC] [TIFF OMITTED] T1742A.228
    
    [GRAPHIC] [TIFF OMITTED] T1742A.229
    
    [GRAPHIC] [TIFF OMITTED] T1742A.230
    
    [GRAPHIC] [TIFF OMITTED] T1742A.231
    
    [GRAPHIC] [TIFF OMITTED] T1742A.232
    
    [GRAPHIC] [TIFF OMITTED] T1742A.233
    
    [GRAPHIC] [TIFF OMITTED] T1742A.234
    
    [GRAPHIC] [TIFF OMITTED] T1742A.235
    
    [GRAPHIC] [TIFF OMITTED] T1742A.236
    
    [GRAPHIC] [TIFF OMITTED] T1742A.237
    
    [GRAPHIC] [TIFF OMITTED] T1742A.238
    
    [GRAPHIC] [TIFF OMITTED] T1742A.239
    
    [GRAPHIC] [TIFF OMITTED] T1742A.240
    
    [GRAPHIC] [TIFF OMITTED] T1742A.241
    
    [GRAPHIC] [TIFF OMITTED] T1742A.242
    
    [GRAPHIC] [TIFF OMITTED] T1742A.243
    
    [GRAPHIC] [TIFF OMITTED] T1742A.244
    
    [GRAPHIC] [TIFF OMITTED] T1742A.245
    
    [GRAPHIC] [TIFF OMITTED] T1742A.246
    
    [GRAPHIC] [TIFF OMITTED] T1742A.247
    
    [GRAPHIC] [TIFF OMITTED] T1742A.248
    
    [GRAPHIC] [TIFF OMITTED] T1742A.249
    
    [GRAPHIC] [TIFF OMITTED] T1742A.250
    
    [GRAPHIC] [TIFF OMITTED] T1742A.251
    
    [GRAPHIC] [TIFF OMITTED] T1742A.252
    
    [GRAPHIC] [TIFF OMITTED] T1742A.253
    
    [GRAPHIC] [TIFF OMITTED] T1742A.254
    
    [GRAPHIC] [TIFF OMITTED] T1742A.255
    
    [GRAPHIC] [TIFF OMITTED] T1742A.256
    
    [GRAPHIC] [TIFF OMITTED] T1742A.257
    
    [GRAPHIC] [TIFF OMITTED] T1742A.258
    
    [GRAPHIC] [TIFF OMITTED] T1742A.259
    
    [GRAPHIC] [TIFF OMITTED] T1742A.260
    
    [GRAPHIC] [TIFF OMITTED] T1742A.261
    
    [GRAPHIC] [TIFF OMITTED] T1742A.262
    
    [GRAPHIC] [TIFF OMITTED] T1742A.263
    
    [GRAPHIC] [TIFF OMITTED] T1742A.264
    
    [GRAPHIC] [TIFF OMITTED] T1742A.265
    
    [GRAPHIC] [TIFF OMITTED] T1742A.266
    
    [GRAPHIC] [TIFF OMITTED] T1742A.267
    
    [GRAPHIC] [TIFF OMITTED] T1742A.268
    
    [GRAPHIC] [TIFF OMITTED] T1742A.269
    
    [GRAPHIC] [TIFF OMITTED] T1742A.270
    
    [GRAPHIC] [TIFF OMITTED] T1742A.271
    
    [GRAPHIC] [TIFF OMITTED] T1742A.272
    
    [GRAPHIC] [TIFF OMITTED] T1742A.273
    
    [GRAPHIC] [TIFF OMITTED] T1742A.274
    
    [GRAPHIC] [TIFF OMITTED] T1742A.275
    
    [GRAPHIC] [TIFF OMITTED] T1742A.276
    
    [GRAPHIC] [TIFF OMITTED] T1742A.277
    
    [GRAPHIC] [TIFF OMITTED] T1742A.278
    
    [GRAPHIC] [TIFF OMITTED] T1742A.279
    
    [GRAPHIC] [TIFF OMITTED] T1742A.280
    
    [GRAPHIC] [TIFF OMITTED] T1742A.281
    
    [GRAPHIC] [TIFF OMITTED] T1742A.282
    
    [GRAPHIC] [TIFF OMITTED] T1742A.283
    
    [GRAPHIC] [TIFF OMITTED] T1742A.284
    
    [GRAPHIC] [TIFF OMITTED] T1742A.285
    
    [GRAPHIC] [TIFF OMITTED] T1742A.286
    
    [GRAPHIC] [TIFF OMITTED] T1742A.287
    
    [GRAPHIC] [TIFF OMITTED] T1742A.288
    
    [GRAPHIC] [TIFF OMITTED] T1742A.289
    
    [GRAPHIC] [TIFF OMITTED] T1742A.290
    
    [GRAPHIC] [TIFF OMITTED] T1742A.291
    
    [GRAPHIC] [TIFF OMITTED] T1742A.292
    
    [GRAPHIC] [TIFF OMITTED] T1742A.293
    
    [GRAPHIC] [TIFF OMITTED] T1742A.294
    
    [GRAPHIC] [TIFF OMITTED] T1742A.295
    
    [GRAPHIC] [TIFF OMITTED] T1742A.296
    
    [GRAPHIC] [TIFF OMITTED] T1742A.297
    
    [GRAPHIC] [TIFF OMITTED] T1742A.298
    
    [GRAPHIC] [TIFF OMITTED] T1742A.299
    
    [GRAPHIC] [TIFF OMITTED] T1742A.300
    
    [GRAPHIC] [TIFF OMITTED] T1742A.301
    
    [GRAPHIC] [TIFF OMITTED] T1742A.302
    
    [GRAPHIC] [TIFF OMITTED] T1742A.303
    
    [GRAPHIC] [TIFF OMITTED] T1742A.304
    
    [GRAPHIC] [TIFF OMITTED] T1742A.305
    
    [GRAPHIC] [TIFF OMITTED] T1742A.306
    
    [GRAPHIC] [TIFF OMITTED] T1742A.307
    
    [GRAPHIC] [TIFF OMITTED] T1742A.308
    
    [GRAPHIC] [TIFF OMITTED] T1742A.309
    
    [GRAPHIC] [TIFF OMITTED] T1742A.310
    
    [GRAPHIC] [TIFF OMITTED] T1742A.311
    
    [GRAPHIC] [TIFF OMITTED] T1742A.312
    
    [GRAPHIC] [TIFF OMITTED] T1742A.313
    
    [GRAPHIC] [TIFF OMITTED] T1742A.314
    
    [GRAPHIC] [TIFF OMITTED] T1742A.315
    
    [GRAPHIC] [TIFF OMITTED] T1742A.316
    
    [GRAPHIC] [TIFF OMITTED] T1742A.317
    
    [GRAPHIC] [TIFF OMITTED] T1742A.318
    
    [GRAPHIC] [TIFF OMITTED] T1742A.319
    
    [GRAPHIC] [TIFF OMITTED] T1742A.320
    
    [GRAPHIC] [TIFF OMITTED] T1742A.321
    
    [GRAPHIC] [TIFF OMITTED] T1742A.322
    
    [GRAPHIC] [TIFF OMITTED] T1742A.323
    
    [GRAPHIC] [TIFF OMITTED] T1742A.324
    
    [GRAPHIC] [TIFF OMITTED] T1742A.325
    
    [GRAPHIC] [TIFF OMITTED] T1742A.326
    
    [GRAPHIC] [TIFF OMITTED] T1742A.327
    
    [GRAPHIC] [TIFF OMITTED] T1742A.328
    
    [GRAPHIC] [TIFF OMITTED] T1742A.329
    
    [GRAPHIC] [TIFF OMITTED] T1742A.330
    
    [GRAPHIC] [TIFF OMITTED] T1742A.331
    
    [GRAPHIC] [TIFF OMITTED] T1742A.332
    
    [GRAPHIC] [TIFF OMITTED] T1742A.333
    
    [GRAPHIC] [TIFF OMITTED] T1742A.334
    
    [GRAPHIC] [TIFF OMITTED] T1742A.335
    
    [GRAPHIC] [TIFF OMITTED] T1742A.336
    
    [GRAPHIC] [TIFF OMITTED] T1742A.337
    
    [GRAPHIC] [TIFF OMITTED] T1742A.338
    
    [GRAPHIC] [TIFF OMITTED] T1742A.339
    
    [GRAPHIC] [TIFF OMITTED] T1742A.340
    
    [GRAPHIC] [TIFF OMITTED] T1742A.341
    
    [GRAPHIC] [TIFF OMITTED] T1742A.342
    
    [GRAPHIC] [TIFF OMITTED] T1742A.343
    
    [GRAPHIC] [TIFF OMITTED] T1742A.344
    
    [GRAPHIC] [TIFF OMITTED] T1742A.345
    
    [GRAPHIC] [TIFF OMITTED] T1742A.346
    
    [GRAPHIC] [TIFF OMITTED] T1742A.347
    
    [GRAPHIC] [TIFF OMITTED] T1742A.348
    
    [GRAPHIC] [TIFF OMITTED] T1742A.349
    
    [GRAPHIC] [TIFF OMITTED] T1742A.350
    
    [GRAPHIC] [TIFF OMITTED] T1742A.351
    
    [GRAPHIC] [TIFF OMITTED] T1742A.352
    
    [GRAPHIC] [TIFF OMITTED] T1742A.353
    
    [GRAPHIC] [TIFF OMITTED] T1742A.354
    
    [GRAPHIC] [TIFF OMITTED] T1742A.355
    
    [GRAPHIC] [TIFF OMITTED] T1742A.356
    
    [GRAPHIC] [TIFF OMITTED] T1742A.357
    
    [GRAPHIC] [TIFF OMITTED] T1742A.358
    
    [GRAPHIC] [TIFF OMITTED] T1742A.359
    
    [GRAPHIC] [TIFF OMITTED] T1742A.360
    
    [GRAPHIC] [TIFF OMITTED] T1742A.361
    
    [GRAPHIC] [TIFF OMITTED] T1742A.362
    
    [GRAPHIC] [TIFF OMITTED] T1742A.363
    
    [GRAPHIC] [TIFF OMITTED] T1742A.364
    
    [GRAPHIC] [TIFF OMITTED] T1742A.365
    
    [GRAPHIC] [TIFF OMITTED] T1742A.366
    
    [GRAPHIC] [TIFF OMITTED] T1742A.367
    
    [GRAPHIC] [TIFF OMITTED] T1742A.368
    
    [GRAPHIC] [TIFF OMITTED] T1742A.369
    
    [GRAPHIC] [TIFF OMITTED] T1742A.370
    
    [GRAPHIC] [TIFF OMITTED] T1742A.371
    
    [GRAPHIC] [TIFF OMITTED] T1742A.372
    
    [GRAPHIC] [TIFF OMITTED] T1742A.373
    
    [GRAPHIC] [TIFF OMITTED] T1742A.374
    
    [GRAPHIC] [TIFF OMITTED] T1742A.375
    
    [GRAPHIC] [TIFF OMITTED] T1742A.376
    
    [GRAPHIC] [TIFF OMITTED] T1742A.377
    
    [GRAPHIC] [TIFF OMITTED] T1742A.378
    
    [GRAPHIC] [TIFF OMITTED] T1742A.379
    
    [GRAPHIC] [TIFF OMITTED] T1742A.380
    
    [GRAPHIC] [TIFF OMITTED] T1742A.381
    
    [GRAPHIC] [TIFF OMITTED] T1742A.382
    
    [GRAPHIC] [TIFF OMITTED] T1742A.383
    
    [GRAPHIC] [TIFF OMITTED] T1742A.384
    
    [GRAPHIC] [TIFF OMITTED] T1742A.385
    
    [GRAPHIC] [TIFF OMITTED] T1742A.386
    
    [GRAPHIC] [TIFF OMITTED] T1742A.387
    
    [GRAPHIC] [TIFF OMITTED] T1742A.388
    
    [GRAPHIC] [TIFF OMITTED] T1742A.389
    
    [GRAPHIC] [TIFF OMITTED] T1742A.390
    
    [GRAPHIC] [TIFF OMITTED] T1742A.391
    
    [GRAPHIC] [TIFF OMITTED] T1742A.392
    
    [GRAPHIC] [TIFF OMITTED] T1742A.393
    
    [GRAPHIC] [TIFF OMITTED] T1742A.394
    
    [GRAPHIC] [TIFF OMITTED] T1742A.395
    
    [GRAPHIC] [TIFF OMITTED] T1742A.396
    
    [GRAPHIC] [TIFF OMITTED] T1742A.397
    
    [GRAPHIC] [TIFF OMITTED] T1742A.398
    
    [GRAPHIC] [TIFF OMITTED] T1742A.399
    
                                         Wednesday, April 14, 2010.

                  BUREAU OF RECLAMATION FY 2011 BUDGET

                               WITNESSES

MICHAEL L. CONNOR, COMMISSIONER, BUREAU OF RECLAMATION
ANNE CASTLE, ASSISTANT SECRETARY FOR WATER AND SCIENCE, DEPARTMENT OF 
    THE INTERIOR
REED MURRAY, PROGRAM DIRECTOR, CENTRAL UTAH PROJECT COMPLETION ACT 
    OFFICE
    Mr. Pastor [presiding]. Hearing will come to order. Good 
afternoon. Today the Subcommittee on Energy and Water 
Development meets to hear testimony on the fiscal year 2011 
budget request for the Department of Interior's water agencies 
in the western states, including the Bureau of Reclamation and 
the Central Utah Project Completion Act Office.
    The Bureau of Reclamation is responsible for providing 
agricultural, municipal and industrial water supply in the 
West. Economies, ecosystems, and communities all rely on the 
availability of clean water. At a time when demand is 
increasing and many regions have been hit by extended drought 
the Bureau is being asked more and more to provide solutions to 
the West's water needs while being good stewards of our natural 
resources and I hope to hear how the fiscal year 2011 budget 
request reflects this expanded responsibility.
    Every day we hear examples where state, local, and federal 
agencies, as well as tribal governments, have to spread limited 
water resources across competing demands, including use for 
water supply, power generation, ecosystem restoration, and our 
river and delta systems. These challenges have been 
particularly difficult in California, where water is pulled 
between an agricultural sector with high unemployment in some 
areas, municipal and industrial water supply for growing 
populations, and an overstressed delta ecosystem.
    I look forward to hearing the Reclamation's strategy to 
help all interests when water demand is increasing and supplies 
continue to be scarce.
    I also note the Bureau of Reclamation's roots in building 
and maintaining dams and other water structures that protect 
Americans. Much of this infrastructure was built nearly a 
century ago; in fact, over half of the Bureau's dams are now 
more than 60 years old. It is critical that Reclamation 
maintain its aging infrastructure and I hope today to explore 
how the budget request provides funding levels that meet the 
Bureau's responsibility to keep Americans safe while 
maintaining America's dams in proper working order.
    The Bureau of Reclamation plays a vital role in delivering 
water to tribes and rural communities that could not otherwise 
access clean water. The Bureau's rural water budget request is 
significantly below the fiscal year 2010 level and today I look 
to our witnesses to shed light on how the administration's 
proposal will address their water supply commitments to tribes 
and meet the needs of rural communities.
    We have before us the assistant secretary for water and 
science, Anne Castle, to present the Department of Interior's 
water strategy and how the strategy is reflected in the budget 
request; Bureau of Reclamation Commissioner Michael Connor, who 
will address the Bureau of Reclamation fiscal year 2011 budget 
request, including the budget's activities related to water 
supply, water recycling and reuse, ecosystem restoration, rural 
water delivery, dam safety, and other programs; finally, 
Program Director Reed Murray, to give testimony on the 
administration request for the Central Utah Project Completion 
Act.
    Welcome, to all of you. I ask each of you to ensure that 
the hearing record--questions for the record, any supporting 
information requested by the subcommittee are delivered in 
final form to the subcommittee no later than 4 weeks from the 
time your receive them. Members with additional questions for 
the record will have until close of business tomorrow to 
provide them to the subcommittee.
    And with these opening comments, I would like to yield to 
the ranking member for any opening comments that he would like 
to make.
    Mr. Frelinghuysen. Well, thank you, Mr. Chairman.
    Good afternoon, Secretary Castle, Commissioner Connor, 
Director Murray. Welcome to the committee.
    The administration's budget request for the Bureau of 
Reclamation and related accounts is just over $1.1 billion, $22 
million below the fiscal year 2010 level. I have made it clear 
in all of our hearings this year how concerned my constituents 
are about the growing deficit. Your programs were actually cut 
from the fiscal year 2010 level, but I don't want to lose 
sight, however, of the funding and extraordinary flexibility 
which Congress provided you in the Stimulus Act. We would like 
to hear how that $1 billion has been spent.
    I do have some concerns about the priorities expressed in 
the budget request. The heart of the Bureau is water and 
power--is water and power management for the region, yet this 
part of the budget is cut by nearly one-quarter. At the same 
time, land and fish and wildlife conservation and development 
are increased by over 28 percent. Now, I have been a longtime 
supporter of our--of environmental conservation programs, but 
with that said, I hope you will be able to explain why, with 
rising tension and economic devastation in the West caused by 
decreasing access to water--I think the chairman has focused on 
that in his remarks, too--now is the time to cut funding for 
these very important programs that should be helping us find 
solutions.
    The Bureau's reputation for water resources management is 
strong, which is only fitting given how important your work is 
to the population, economic development, and environmental 
quality of our western states. But the future will require 
more. You will need visionary and creative leadership to manage 
competing stresses on the scarce water resources of the region.
    I look forward--and I should say we look forward--to 
hearing more of your plans for providing this leadership in 
addition to the technical expertise, which has long been your 
bureau's strength. Thank you for your appearance before the 
committee and we welcome you here this afternoon.
    Thank you, Mr. Chairman.
    Ms. Castle. Thank you, Mr. Chairman, Mr. Frelinghuysen, 
members of the subcommittee. Thanks for giving me the 
opportunity to be here today to represent the secretary----
    Mr. Pastor [continuing]. Move that mike up to----
    Ms. Castle. You bet.
    Thanks for the opportunity to represent the secretary of 
interior and to support the president's 2011 budget request for 
the Bureau of Reclamation and the Central Utah Project 
Completion Act Office. You recognized Commissioner Connor and 
Director Murray. With us here at the table is Bob Wolf, 
Reclamation's director of program and budget as well, answering 
detail questions.
    Interior's people and programs and our lands affect 
virtually every American. We protect natural resources and 
special places, like national parks and wildlife refuges; we 
protect waterways and cultural heritage; we manage energy 
development and provide earth science for the entire country; 
and we have trust responsibility for Native American 
communities. We really are the department of all America.
    The 2011 budget request for the department focuses on six 
priorities: first, implementing a new energy frontier; second, 
climate change adaptation; third, tackling our water 
challenges; fourth, protecting America's great outdoors; fifth, 
engaging our youth in natural resources; and finally, 
empowering tribal nations.
    I am going to mention just a couple of those areas that I 
think this subcommittee would be particularly interested in, 
and the first is our new sustainable water strategy, called 
WaterSMART. The WaterSMART program was launched at the end of 
February. SMART stands for ``sustain and manage America's 
resources for tomorrow.''
    We need this program and we need to focus on water 
sustainability because we have an imbalance in our water supply 
and demand equation. Just as Mr. Frelinghuysen mentioned, we 
have additional pressures on our water supplies and we need a 
national commitment to balance--rebalance--that imbalance.
    It is caused by a variety of factors. We have population 
growth, climate change, we have new water needs for domestic 
energy development, we have declining aquifer levels, and we 
are now much more cognizant of the need for water to support 
healthy ecosystems.
    The WaterSMART program is designed to help bring that 
imbalanced equation back into balance. We are going to, through 
this program, coordinate the department's different water 
conservation and sustainability efforts. We are going to focus 
on the water-energy nexus, recognizing that different types of 
energy development spells different water demands and those 
demands need to be taken into account when we are making 
decisions about energy development, and also recognizing that 
saving water also conserves energy.
    The program will have an Internet-based clearinghouse for 
best practices and incentives and the most cost-effective 
water-saving technologies. We will coordinate with our 
department's climate change program, and finally, we are 
developing our own water footprint reduction program so that we 
will walk the walk in the Department of the Interior and help 
achieve the president's goal of reducing water consumption 
overall at federal agencies.
    The 2011 budget includes $72.9 million for the various 
components of the Water SMART program. That is an increase of 
over $36 million over the 2010 enacted budget. $62 million of 
that total is for the Bureau of Reclamation's programs, 
including its basin studies and various cost-share grants for 
water efficiency and recycling and reuse projects. Another 
$10.9 million is for the U.S. Geological Survey's WaterSMART 
availability and use assessment, what we have called in the 
past ``water census,'' and that part of the program implements 
provisions of the Secure Water Act, Public Law 111-11.
    In the category of new energy development, I want to just 
mention a new memorandum of understanding on hydroelectric 
power development. It was signed just last month by Secretary 
Salazar, and Energy Secretary Chu, and Assistant Secretary 
Darcy, of the Department of the Army. And that MOU represents a 
new approach to the development of hydroelectric power--one 
that seeks to take advantage of all the opportunities that we 
have to develop hydropower on existing federal facilities in a 
sustainable way.
    We can add to our country's renewable energy portfolio with 
low-impact hydro projects that won't have the damaging 
environmental effects that we have seen in the past from some 
hydro developments. We are working right now to identify the 
best places on existing federal facilities that we can add 
hydroelectric power capability, and we will start working with 
our local communities to make that happen.
    The overall budget request for the Bureau of Reclamation is 
$1.02 billion. Commissioner Connor can talk about the details 
of that budget request, but I just want to emphasize that the 
budget is intended to support reliable and sustainable water 
supplies that are delivered in an economically and 
environmentally sound manner.
    The 2011 budget request for the Central Utah Project 
Completion Act is $43 million; that is $1 million more than in 
2010. And that funding provides for the continued design and 
construction of the Utah Lake System, which is the last 
component of the Central Utah Project.
    This 2011 budget represents our best effort to work within 
the tough economic times that we are all facing, to do our part 
to reduce the spending deficit but to still carry out the core 
mission and priorities of the Department of the Interior. So 
thank you very much for this opportunity to be here today, and 
I will be happy to answer any questions. [See Page 617]
    Mr. Connor. Mr. Chairman, Ranking Member Frelinghuysen, and 
members of the subcommittee, thank you for the opportunity to 
discuss the Bureau of Reclamation's fiscal year 2011 budget. 
With me today is Bob Wolf, our director of program and budget 
at the Bureau of Reclamation.
    The fiscal year 2011 discretionary request for Reclamation, 
as stated by Secretary Castle, is $1.02 billion. Overall, the 
budget reflects the set of wide-ranging activities and 
initiatives that support Reclamation's mission.
    According to a recent departmental economic analysis, 
Reclamation's mission of supplying water, generating power, and 
providing recreation opportunities to millions of Americans 
supports over 260,000 jobs on an annual basis and $39.5 billion 
in economic activity.
    At its core, however, the goal of Reclamation's budget is 
simply to promote certainty and sustainability in the use of 
limited water resources, whether it be for agricultural, 
municipal, industrial, environmental, or power generation 
purposes. Certainty and sustainability requires Reclamation to 
take action on many fronts, and our budget proposal was 
developed with that principle in mind. Through these efforts we 
believe we can continue to provide the economic benefits I just 
described.
    Secretary Castle identified six priorities that are a focal 
point of Interior's fiscal year 2011 budget. Very briefly I 
want to speak to Reclamation's involvement in each of those 
areas.
    First two are tackling the nation's water challenges and 
new energy frontier. Addressing water challenges and energy 
needs starts with operating, maintaining, and improving the 
condition of our existing facilities.
    Accordingly, the 2011 budget requests a total of $424 
million for facility operations, maintenance, and 
rehabilitation activities. This amount represents almost half--
46 percent--of the water and related resources account. The 
remaining balance of that account is used for water, energy, 
land, and fish and wildlife resource management activities, 
which amount to $490 million in total. Included within this 
latter amount, and critical to tackling the nation's water 
challenges, is the WaterSMART program that was just described 
by the assistant secretary. I would simply like to add two 
points to that earlier discussion.
    First, WaterSMART is an important program that can and has 
expanded water supplies in the West. The WaterSMART grant 
program has become immensely popular and we expect 
significantly more requests than there is available funding. In 
2009 Reclamation made available $40 million of its Recovery Act 
funds for the grant program and received approximately $350 
million in proposals. Water-users in the West are generating 
creative solutions to water resources challenges and are 
willing to put significant resources on the table to match 
limited federal funds.
    WaterSMART also includes a specific focus on the energy-
water nexus, as was mentioned. In addition to promoting energy 
efficiency through conservation, Reclamation will be working 
with our partners to facilitate new renewable energy generation 
development in association with Reclamation facilities and 
operations.
    In the area of climate change, Reclamation will do its part 
to assist the department in implementing an integrated strategy 
to better understand and respond to climate change impacts on 
water and associated resources. As identified in the budget 
documents, the department will be establishing climate science 
centers, landscape conservation cooperatives, and a Climate 
Effects Network.
    Reclamation's 2011 budget includes an increase of $3 
million for Reclamation's basin study program to implement 
West-wide risk assessments and to establish two LCCs. 
Reclamation's science and technology program will also devote 
$4 million in support of the science agenda being carried out 
by the climate science centers. This funding represents a 
critical investment that will help our stakeholders better 
understand and plan for our future impacted by increasing 
temperatures.
    Treasured landscapes: Protecting the nation's treasured 
landscapes is another departmental priority, and it is 
imperative that the Reclamation do its share. Simply put, 
maintaining our ability to deliver water and generate power 
requires protecting and restoring the aquatic and riparian 
environments affected by our operations.
    Beyond that, restoring the health of our rivers will help 
avoid future conflicts and provide more flexibility in 
addressing the challenges presented by droughts, increasing 
populations, increasing energy demands, environmentally 
depleted aquifers, and a changing climate. Included within the 
restoring rivers programs are our endangered species recovery 
programs, which is an increasing portion of Reclamation's 
budget.
    The final priority I want to discuss is Reclamation's 
support for tribal nations. The 2011 budget continues this 
support through our ongoing efforts to implement Indian water 
right settlements.
    Included in the request is funding for the Animas-La Plata 
Project and Shiprock Pipeline, which are features of the 
Colorado Ute Settlement. The request also includes funding for 
the Navajo-Gallup Water Supply Project, the key element of the 
Navajo Nation Water Rights Settlement in the San Juan River 
Basin in New Mexico. There is also $4 million included to 
complete the federal funding necessary to implement the Soboba 
Water Rights Settlement in California.
    Outside settlements, Reclamation is addressing tribal needs 
through its rural water program. $62 million is requested for 
continuing the construction of authorized rural water projects, 
several of which benefit tribal nations in the Great Plains and 
the upper Colorado River regions.
    Mr. Chairman, I would like to conclude by simply expressing 
my sincere appreciation for the continued support that this 
subcommittee has provided the Bureau of Reclamation, and I will 
answer questions at the appropriate time. [See Page 622]
    Mr. Murray. Chairman, I will not be giving an oral 
statement at this time, but will rely on my written testimony. 
[See Page 629]
    Mr. Pastor. I will start with the California Bay-Delta 
water issues, since it is on everybody's mind. California, as 
well as the Bureau of Reclamation, have been struggling to 
supply water to the state's farmers, municipal and industrial 
water users, while protecting the already stressed natural 
habitat.
    Last month the National Academies released a study of the 
impact of water diversions from Sacramento and San Joaquin 
Rivers in California on the Sacramento-San Joaquin Delta. These 
diversions, which supply water to agricultural, municipal, and 
industrial customers, have impacted ecosystem restoration and 
the protection of endangered species and highlight the 
challenge in California of providing water for growing 
populations and economic needs while preventing harm to the 
region's natural treasures.
    I would like to hear your thoughts on the study's results 
that are relevant to the Bureau's operations and direction in 
California. You recently took several actions to try to help 
San Joaquin Valley farmers and other water users. What actions 
has the Reclamation taken to ease water supply shortfalls in 
the region? How does the National Academy study relate to the 
Reclamation actions in that area? And how are you planning to 
move forward in a way that will further improve the situation?
    I guess either Madam Secretary or--and Commissioner--both 
of you answer.
    Ms. Castle. Mr. Chairman, why don't I give an overview of 
the departmental response----
    Mr. Pastor. Okay.
    Ms. Castle [continuing]. On California water issues, and 
then Commissioner Connor can talk more specifically about 
Reclamation's involvement.
    One thing that I think is the overriding message from the 
Department of the Interior is that we have an all-hands-on-deck 
approach to trying to be productive and helpful and solve 
problems in the California Bay-Delta. The secretary himself is 
deeply involved. I was in a meeting this morning with him.
    He has personally taken a very significant interest in all 
of the details of what is going on in California. He announced 
yesterday a $20.7 million Recovery Act funding for the 
intertie--the connection between the Delta-Mendota Canal and 
the California Aqueduct that will help create more efficiency 
and more capacity in the use of the California system.
    He will be announcing, by the end of this week, the new 
allocations of water in California based on the March 1 
forecast. He announced the allocations that were based on the 
February forecast last month. We have speeded up that process 
to try to provide more certainty to California farmers and also 
allow them to know earlier what they should be able to count 
on.
    Reclamation's budget for 2011 in the request--in the 
President's request--is $172 million for the Central Valley 
Project, and that is just Reclamation. I was looking at the 
cross-cut budget for CALFED activities throughout the 
administration, and it is $265 million. The bulk of that is 
from Department of Interior agencies, but it also includes very 
significant contributions from the Corps of Engineers and the 
Department of Agriculture. So we really do have a concerted 
effort to try to better the situation in California.
    With respect to the National Academy of Science study, we 
were very pleased that that study found that the decisions and 
the conclusions that had been reached by the Fish and Wildlife 
Service and the NOAA Fisheries Service were scientifically 
justified. But that study gave us, also, some opportunities to 
make things better and made some suggestions that are currently 
being considered and acted upon within both the Department of 
Commerce and the Department of the Interior. We are actively 
and aggressively working to follow up on the NAS study 
suggestions and hope to come out with a plan in the very near 
future.
    Mr. Pastor. Commissioner.
    Mr. Connor. I would simply add that I would certainly agree 
with the notion that California water is on everybody's minds. 
It certainly is on my mind on a daily basis and has been a 
focus of our efforts. I would simply add a couple of things to 
what Secretary Castle has already mentioned.
    I think the notion of--with respect to how we are following 
up on the recommendations and the analysis done by the National 
Academy of Science is to recognize the area of improvement that 
the Academy noted, which is a fundamentally integrated approach 
to science that needs to take--be taken into account by both 
the Bureau of Reclamation as an action agency as well as the 
Fish and Wildlife Service and NOAA Fisheries, as the agencies 
reviewing the activity under the Endangered Species Act. It is 
something that we are going to aggressively follow up on. I 
think there is area for improvement in science, and that was 
demonstrated this year with the operations that have occurred 
so far in 2010.
    During the latter part of last year, recognizing, with 
respect to the delta smelt and its relationship to turbidity in 
the Bay-Delta--recognizing that is one very strong indicator of 
the location of the smelt. We, in association with our analysis 
of a project known as 2-Gates, we installed a large number of 
turbidity monitors in the Delta. The result of that information 
was incorporated into the activities this year in reviewing, on 
a week-to-week basis, how much we could pump from the Bay-
Delta.
    Based on that information, the fisheries agencies, a group 
known as the Smelt Working Group, takes a look at all the 
indicators and determines whether or not there is a high 
likelihood of taking some of the endangered smelt. That data 
was very helpful in helping us to understand the location of 
smelt and was incorporated and was a factor of why there is a 
range within the smelt's biological opinion that you can pump. 
That information helped us maintain a higher range of pumping 
throughout this spring season, up until April 1 when other 
aspects of the biological opinion took place.
    So from that standpoint, more precipitation, better 
management of our operations have helped to improve the water 
supply situation. As mentioned earlier, we will be making yet 
another announcement revising our allocations before the end of 
the week--Central Valley Project. And that is the type of 
activity that we are going to be looking at--science, 
integrated science, coordinated operations as the intertie will 
allow us to do. That is part of the whole suite of things that 
we will be doing over the next year to short-term, mid-term, 
and long-term address the California water issues.
    Mr. Pastor. The only thing you have to worry about is 
precipitation now.
    Mr. Connor. Yes.
    Mr. Pastor. Because that has been a major factor there, and 
I guess it continues to be. I don't know how this winter was up 
there in terms of precipitation.
    Mr. Connor. It has actually--after the turn of the year, 
from January on, it has been fairly good. It has been on the 
average level, which is terrific.
    The only problem and the ongoing, lingering effects of the 
drought was, we were--the fall, through last December, was very 
dry. Our reservoirs were low, and although we have gotten a lot 
of great precipitation this year we are kind of in a deficit 
situation.
    But now our reservoirs are refilling. I think at least 
three of the five are basically at average year-to-date at this 
point in time, including Shasta, which is a very good sign. And 
from that standpoint we are in a better situation than we were 
last year, but still we have the lingering effects of the 
drought plus the ongoing restrictions, which have limited water 
supply.
    Mr. Pastor. Well, thank God for El Nino last year.
    Rodney.
    Mr. Frelinghuysen. Before yielding my time to Mr. Rehberg, 
let me thank the chairman for raising this issue. I don't think 
anything on the floor last year raised, should we say, the heat 
level in this debate on diversion--water diversion. For those 
of us from the East, we really got a full taste, should we say, 
or a full measure of how controversial these issues are.
    So I could just say on my own behalf, and I am sure other 
members of the committee, we will be watching very carefully as 
to what the hell is going on out there, and obviously we want 
to be respectful of the views and knowledge of members of 
Congress from California that represent the whole state and 
that area, but boy, I think we learned firsthand, you know, up 
close and personal how some of these decisions can affect the 
way of life of many people up there. We are obviously 
respectful of the environment and fish species, but it was a 
lesson for some of us as to how things can sort of dissipate 
unless we address it. Hopefully this National Academy study 
will put us in the right direction.
    So with that, Mr. Chairman, I would like to yield my time 
to Mr. Rehberg.
    Mr. Rehberg. Thank you, Mr. Chairman, and Mr. 
Frelinghuysen. Okay.
    Real quickly--obviously I don't want to be as aggressive in 
my questioning. I think 4 or 5 years ago I got after 
Commissioner Keyes and he quit the next day, so----
    [Laughter.]
    Mr. Rehberg. I am going to be a little careful.
    Montana produces or provides $50 million a year to the 
Reclamation Fund, and the president has seen fit to allow us 
back $3 million towards our two major projects that are both 
anticipated to cost between $200 million to $250 million 
apiece. At $2 million to $3 million per year you can't even 
last that long as commissioner, nor could any of us.
    I don't get it. Why? What is the idea behind having an 
authorized project, signed by the president after the House and 
Senate both passes it, and then to appropriate a grand total of 
$3 million for two projects from a state that is adequately 
providing at least $50 million to your budget? Where is the 
money going?
    Mr. Connor. Other projects.
    Mr. Rehberg. No. You didn't get any of it.
    Mr. Connor. I know. As mentioned in the----
    Mr. Rehberg. Thank you, Mr. Chairman.
    Mr. Connor [continuing]. Chairman's remarks, there are a 
wide array of competing priorities with respect to----
    Mr. Rehberg. With our money.
    Mr. Connor. With the money that flows into the Reclamation 
Fund----
    Mr. Rehberg. From Montana.
    Mr. Connor [continuing]. From--Montana being one of many 
states that provides money to the Reclamation Fund.
    Mr. Rehberg. We call them donor states. We are donating $50 
million of energy production--mostly mineral leasing dollars--
for a return of $3 million to two projects that will cost $400 
million.
    Mr. Connor. Yes.
    Mr. Rehberg. Okay. Are you financing or appropriating 
dollars in this budget for any unauthorized projects or new 
starts?
    Mr. Connor. With respect to rural water projects, no. They 
are all authorized projects. There are no new starts in our 
budget this year.
    Mr. Rehberg. Okay.
    Mr. Connor. And I would simply note that we did allocate 
$200 million of Recovery Act funding for the rural water 
projects, including $60 million to those two projects in 
Montana.
    Mr. Rehberg. But I noticed, like the Garrison Diversion or 
with the Lewis and Clark Project, you didn't stop, you kept 
going forward. And part of the problem is you are not staying 
ahead of inflation, and the projects like Garrison and Lewis 
and Clark are eating up the budget because they are not staying 
within budget, and it is this catch-22. You are never going to 
get ahead of the game if we don't realistically appropriate 
dollars to these projects.
    Mr. Connor. The numbers don't lie, and I agree with you, 
sir, that currently inflation is eating up more in the way of 
resources than we are applying year-to-year, without a doubt. 
We prioritize our rural water project funding towards O&M; that 
has got to be the first priority, according to the 
authorizations that we are working under. So we have got $62 
million in the budget this year. Approximately $15 million, $16 
million of that is being taken up by O&M. So the reality is, as 
we complete it--and that is the second priority, trying to 
complete projects--we are incurring more in the way of O&M 
obligations. So in the balance of----
    Mr. Rehberg. But it sounds--
    Mr. Connor [continuing]. Competing interests----
    Mr. Rehberg [continuing]. We don't see where any projects 
are ever completed because of inflation. None of the projects 
are ever completed.
    Mr. Connor. We certainly, in 2006 we completed the Mid-
Dakota Rural Water Project. We anticipate being able to 
complete the Perkins County Project in South Dakota in the near 
future and we have several projects that are----
    Mr. Rehberg. But based upon the $3 million that our two 
projects, North Central and Dry Prairie, got, when do you 
project them being completed?
    Mr. Connor. I will have to get back to you, but those 
projects are not near completion at this point in time. We do 
have projections as to when they might be completed. Those 
projections are based on phase-out completion of the projects 
that are ongoing right now and then we can move.
    Mr. Rehberg. One last question, Mr. Chairman, then.
    Could we realistically assume the appropriations within 
your request is the priority that--your internal priority 
ranking? So Garrison is number one, Lewis and Clark is number 
two, on down the list? Is that a fair assumption?
    Mr. Connor. We do have--and I am happy to provide to the 
subcommittee the priorities that we use for ranking, and they 
are based on O&M first, then it is the ability to----
    Mr. Rehberg. Yes. I am more interested in the construction 
priorities as opposed to the O&M priorities.
    Mr. Connor [continuing]. And then based on the ability and 
the likelihood of being able to complete projects.
    Mr. Rehberg. Yes. If we could, I would like to also have 
you send that to my office.
    Mr. Connor. Absolutely.
    Mr. Rehberg. Great.
    Thank you, Mr. Chairman.
    Mr. Salazar. Well, thank you, Mr. Chairman.
    Welcome, to all of you here.
    Mr. Connor, I want to thank you for all your help with the 
Arkansas Valley Conduit and Hatua Reservoir and Jackson Gulch 
Rehabilitation. I think that is where Mr. Rehberg's money 
probably is going. [Laughter.]
    But thank you, sir, for being such a great donor state.
    I am just curious why the conduit request for the ARRA 
funding has been declined. I know that one of the criteria is 
shovel-ready projects, but I have noticed on your Web site 
that--and don't misunderstand me, I am not critical of these 
projects--but there are several projects that have been put on 
that have funding for cost-share studies for planning and 
preliminary engineering, such as the Bay-Delta Conservation 
Plan and the Climate Agreement and principal and the San Carlos 
Irrigation Project--and again, I am not criticizing the work of 
these project, but we had requested some ARRA funding so that 
we could actually begin the legal process and the planning 
process for the Arkansas Valley Conduit and we were declined. 
Could you tell us the difference, why these projects got--or 
maybe my brother doesn't like me. I don't know. [Laughter.]
    Mr. Connor. That one I will not touch, but I will note that 
with respect to the Recovery Act Funding, we have made our 
initial set of allocations back last April 2009. We have been 
working through those projects that were identified at that 
point in time and we are seeing, based on bids, et cetera, we 
are having some funds being made available which we are now 
reallocating to different projects.
    With respect to the Arkansas Valley Conduit, my 
understanding is, based on the $5 million write-in that you 
were successful in securing in 2010, which we are making very 
good use of towards the planning and environmental activity 
that you mentioned, plus the $3 million that we have included 
in the fiscal year 2011 budget for the Arkansas Valley Conduit, 
that we are addressing the full measure of capabilities and 
needs that we have right now for the planning activities. So I 
think our perspective right now is that, based on 2010 and the 
2011 request that we are doing--maximizing the use of resources 
towards the planning and the environmental compliance 
activities right now for Arkansas Valley Conduit.
    Mr. Salazar. It is my understanding that they could utilize 
the $11 million to complete the legal process by next October. 
But also, can you provide us with the status of initiating the 
legal process for the conduit?
    Mr. Connor. I can provide that to you for the record.
    Mr. Salazar. Okay. Because it was my understanding that it 
was supposed to take place earlier this month and it hasn't.
    Mr. Connor. Okay. I will follow up on that, Congressman.
    Mr. Salazar. Okay. That is all the questions I have for you 
now. Thank you very much.
    Mr. Calvert. Thank you, Mr. Chairman. Obviously I am from 
California, so I get to take a crack at this Bay-Delta problem 
also.
    I am certainly happy that we are moving, finally, toward 
this intertie project, and I am also, along with the ranking 
member, curious to find out what this National Academy study 
will find. But from a pragmatic point of view, and living in 
the state and being the past chairman of the authorizing 
committee, being familiar with this problem and the authors of 
the underlying legislation on the Bay-Delta, I am certainly 
very concerned about the immediacy of this issue.
    Now, I know you are going to come out with a new allocation 
number here pretty soon and there is a lot of people that are 
risking--are waiting for that number. Their very livelihood is 
at question here. And I am certainly hopeful--what is the 
snowpack right now in this year, I mean, relative to the 
overall season so far?
    Mr. Connor. That is one number I didn't check before I came 
in today, but I think in most of our basins where we are, with 
respect to reservoir levels--Shasta, Folsom--we are--and 
Friant--we are at basically 100 percent average, year-to-date. 
So the snowpack----
    Mr. Calvert. I have heard that it is about approximately 
120 percent. Would you say that is approximately correct?
    Mr. Connor. It has been up to 120 percent, then we hit a 
dry spell in March, and then we have hit a wet spot in the last 
couple weeks so it is probably back up.
    Mr. Calvert. Well, I would hope that we can get these 
allocations back up to where they need to be in order to get 
production up. As you know, there are a number of farms with 
permanent crops that literally--if a proper allocation isn't 
put on the table quickly they are gone. They have stressed that 
crop so much they can't go another year. So I am hopeful that 
that occurs.
    If anyone suggests that the water crisis in California is 
over, unfortunately it is not--we could have 120 percent 
snowpack, and unless you increase the allocation and allow 
these people to pump then, in fact, nothing is going to be 
accomplished. As a matter of fact, I don't know if you keep a 
statistic on how much water that would be otherwise delivered 
to water-users that have been allowed to flow out to the 
Pacific Ocean due to federal imposed restrictions.
    If you could, I would like for the record to find out how 
many acre-feet of water were lost last year due to pumping 
restrictions. You probably don't know that off the top of your 
head, but I would like to know that number. Do you think you 
can find that and submit that for the record?
    Mr. Connor. Yes, we can, and I will follow up more 
specifically. But for last year's number--2009--the figures 
that we have been public with, and it is coordinated between 
our analysis--ours being the Bureau of Reclamation--and the 
State Department of Water Resources, is that on average there 
has been, over the last decade, 5.7 million acre-feet pumped 
from the California Bay-Delta--combined pumping between the 
state project and the Central Valley Project. In 2009 the 
number was 3.6 million acre-feet, so the difference was 2.1 
million acre-feet.
    Mr. Calvert. Does that 2.1 million acre-feet have any 
positive impact on the delta smelt?
    Mr. Connor. Well, all I can tell you----
    Mr. Calvert. Doesn't, in fact, the delta smelt population 
continue to decline?
    Mr. Connor. I wouldn't make a judgment as to their overall 
health, but as you have been informed, the trawling figures 
that estimate the populations were lower this past year. I 
would just note that of that 2.1 million acre-foot reduction--
--
    Mr. Calvert. I would hope in this study that is being 
completed that they would recognize that the smelt population 
continues to crash in spite of the delta restrictions--pumping 
restrictions--that are in place, and that certainly, 
anecdotally, it would be to most people's reaction that there 
are other reasons, as Mr. Costa and others have pointed out, 
why the smelt population continues to go down. And certainly 
the interface between an urban population in San Francisco and 
other factors have a negative impact on that population. And I 
would hope that that study would point that out.
    I participated in a meeting with David Hayes some time ago 
about the 2-Gates Project, and I know you have gone through a 
number of studies, and studies of whether--why the 2-Gates 
Project won't work. I have never really heard precisely why it 
won't work. Can you tell us, for the record, why you believe 
the 2-Gates project will not work and you will not move forward 
on that project?
    Mr. Connor. Well, we have not made a conclusion that the 2-
Gates Project won't work. What we made a conclusion on at the 
end of last year was that we were not going to be able to 
complete the studies necessary to initiate construction in 
2010.
    That was based on, I would say, three factors, one factor 
being the substantial increase in cost from the preliminary 
estimates of $25 million to estimates that range from $60 
million to $70 million, leaving the question of who was going 
to fund the entirety of the project. Two, an independent 
science panel--the CALFED independent science panel, made up 
not just of federal biologists, state biologists, and other 
academics, had concluded that there was not the--at this point 
in time there had not been the scientific underpinnings have 
been prove that 2-Gates would work. And then three, there was 
significant local opposition to the project necessitating a 
more thorough environmental review than an E.A.
    I would say that in--we are ongoing with the analysis and 
the studies necessary to look at the 2-Gates Project, and they 
have been very fruitful, not that the 2-Gates Project wouldn't 
work but the location of the gates initially and where they 
were being specked out were probably not the optimum place to 
put it, and there are----
    Mr. Calvert. Well, I would also point out, if there isn't 
some urgency to this, in fact, there won't be anything left to 
protect, I mean, as far as the farmers--I am not talking about 
the smelt, whether it protects them or not, but we need to get 
on this right away. We have talked about this for well over a 
year now. And, you know, you only have a short window in order 
to build that, so we need to determine whether it is a feasible 
project or not.
    From my trips up there and talking to people, they believe 
that it is, and I think regarding these numbers that we have 
been bantering around, the contractors themselves told me that 
they thought it was about $30 million. I don't know where 
others came up with the $60 million number, unless it was for 
environmental mitigation that was related to the 2-Gates 
Project. Was that part of the problem?
    Mr. Connor. I don't know the entirety of the problem, but 
the significant--the most significant aspect of the increase 
was due to trying to move the project forward so quickly----
    Mr. Calvert. Well, I guess my biggest concern is that if we 
can't move forward on these short-term projects how are we 
going to get around to the long-term solution of the Bay-Delta, 
including the diversion around the delta, if ever? I mean, we 
can't seem to resolve these short-term issues, and I am just 
very concerned about the future of the Central Valley and what 
is going to happen.
    So with that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Pastor. You know, the drought has been a factor for a 
number of years. That 2.1 million acre-feet, what percentage 
was due to the drought? Do you have any idea?
    Mr. Connor. Of that 2.1 million acre-foot shortfall last 
year, 75 percent was attributed to hydrology, or the drought, 
25 percent was due to the regulatory restrictions.
    Mr. Pastor. How much was----
    Mr. Connor. Seventy-five percent, or 1.6 million acre-feet, 
was due to the drought conditions in California, and 500,000 
acre-feet, or 25 percent, was due to the regulatory 
restrictions.
    Mr. Berry. Thank you, Mr. Chairman.
    Been dealing with water all my life. I am from Arkansas and 
my family is in the rice business, and it is a big deal to us.
    Last year we got 80 inches of rainfall. That is a 10-year 
supply for California or places out there.
    When I first went to work at the White House--Clinton White 
House--in 1993 they explained to me that in the West whiskey is 
for drinking and water is for fighting, and I am sure you have 
heard that before. I then went to the Central Valley--I believe 
we were in Vasai, I am not sure--it was a big packing shed out 
there and it was about 110 degrees, and Secretary Babbitt had 
been there the week before and declared that he would like for 
the hallmark of this administration to be that he destroyed 
Friant Dam. That didn't go very well either.
    Bill Thomas--and I didn't even know who Bill Thomas was; I 
did after that forever more--but I was there as a special 
assistant to the president for agriculture and was trying to 
explain that they really weren't going to blow up Friant Dam, 
but Bill Thomas didn't let me off the hook and he took the hide 
off of me like you wouldn't believe in front of 3,000 people 
that enjoyed every minute of it.
    Having said that, when--I was just kind of sitting back 
thinking, ``I got 80 inches of rainfall last year and we got 
water all over the place and I am not really worried about it, 
and this is an issue for those west of me,'' and then we brang 
up a project that I didn't even know existed called ``Arkansas 
Valley Conduit.'' I don't know how far that is from me but I 
don't want them taking water out of the Arkansas River if they 
don't have to, and that makes me a little nervous, even though 
I don't know anything about it----
    Mr. Salazar. Will the gentleman yield?
    The Arkansas River is in Colorado. It is a small----
    Mr. Berry. I know, but it comes by me. [Laughter.]
    And I want it to keep coming by me. We have recommended 
that those states west of us drink as much beer as possible, 
especially in dry conditions. [Laughter.]
    All that having been said, I am very interested in the 
answer to the question that Mr. Calvert from California raised. 
And I actually, when I was in the White House, dealt with some 
of those issues myself, as part of my job. And I know they are 
complex and they are difficult, and you have got extremes on 
both sides and all those things, but is it possible to tell 
whether all these measures that have been done and tried and 
continued to be speculated about, whether it is changing 
anything or not?
    Mr. Connor. Well, I think it is, and I think some of these 
measures demonstrate progress very soon after they are 
completed; some of them are a little bit more intangible. In 
response to Congressman Calvert's, I guess, admonition that we 
really latch on to some of these projects that can make a 
difference short term, I think the intertie project that we 
just announced funding for yesterday is one of those projects, 
and I know you mentioned that as progress being made, and I 
appreciate that.
    That is one that we know, based on that increased 
flexibility of that intertie between the state system and 
federal system, I think there is a general consensus that we 
are going to yield another 40,000 acre-feet of water to the 
project once we complete that. That is an 18-month completion. 
It is going to be in operation at the end of 2011, which is 
great for us because that is when we--that is one time that we 
can start pumping a lot of water. So that is indicative of 
something that will have a very good effect immediately.
    I would also note, as Congressman Calvert is well aware of, 
the Title 16 program that has been strongly supported. This is 
water reuse in Southern California, and its genesis in 1992 was 
to reuse water to get some of the Southern California 
municipalities to rely more on local supplies as opposed to the 
imported supplies from the delta. That, up until this point in 
time through the various implementation of the numerous 
projects we have in Southern California, we estimate they have 
saved or they have recycled and had as an additional supply 
something to the tune of about 250,000 acre-feet.
    I don't think Southern California would have ever survived 
the restrictions from the Colorado River or the Bay-Delta 
currently if they hadn't implemented those projects and had 
increased local supplies. So I think that is another example of 
where progress has been made, it has been meaningful, and it 
has helped weather the storm. Certainly, though, we have a lot 
more to do. We are in a new paradigm, given the state of the 
ecosystem in the Bay-Delta, and we need to be rapidly 
responding to that and developing--Secretary Castle mentioned--
an all-hands-on-deck approach--infrastructure, operations, 
science--so that we can meet the challenges that we face now.
    Ms. Castle. Mr. Berry, if I may add to that answer, on the 
science component, one of the things that we are doing is 
looking very hard at connecting jeopardy to the fish species 
with actions on the ground. We are looking at how the smelt in 
particular are associated with turbid conditions. And that was 
one of the premises of the 2-Gates Project, that we are looking 
to see if there are less expensive, less, sort of, major 
structural alternatives that we can use to try to make a more 
direct connection between the pumping restrictions and jeopardy 
to the smelt--getting the smelt killed in the ponds.
    So the U.S. Geological Survey is working on that together 
with the Fish and Wildlife Service and NOAA Fisheries. So we 
are also looking forward to the phase two of the National 
Academy of Science studies that will look at the other 
stressors that you mentioned, Mr. Calvert, the water pollution 
into the Bay-Delta, that is also having an effect on fish.
    And I think finally, we need to recognize that the state of 
California is also looking very hard at what it needs to do 
with its state water project that is also part of the mix here, 
and the California voters will be faced with that decision in 
November. So, you know, I think that it is one of those 
situations where no one agency can solve the problem. It is a 
big problem. It has developed over 100 years. We have got an 
ecosystem in collapse and we all need to work together in order 
to try to make it better.
    Mr. Pastor. In the report it finds that biological opinions 
are scientifically justified, but it also asserts 
implementation of actions identified by the opinions need to be 
accompanied by careful monitoring, adopted management, and 
additional analysis. So what you explained just a few minutes 
ago, I am assuming that that is part of that whole plan as 
required by the report.
    Ms. Castle. Yes, sir. We are looking and working with NOAA 
Fisheries to integrate the actions of the two agencies that are 
charged with endangered species protections--Fish and Wildlife 
Service and NOAA Fisheries. That was one of the significant 
findings in the NAS report, that those two biological opinions 
should be better integrated. So we are looking at both short-
term and long-term measures to work the bi-ops collectively and 
also looking forward to the announcement of the Bay-Delta 
Conservation Plan, which is expected later this year in 
November, and that will give us the opportunity to work 
together with NOAA Fisheries to come up with an integrated 
biological opinion that will address the long-term plan that 
California has proposed.
    Mr. Simpson. Thank you, Mr. Chairman.
    As you might guess, I was going to ask something about the 
Minidoka Spillway, and so I will. We have discussed this in the 
past, as you know, the irrigation district went out and passed 
bonds that would enable them to fund their portion of the 
spillway project. Bureau didn't put any funding in for this 
year so there is no match for them. That is why they are 
concerned that they are going to go out and sell these bonds, 
they are not going to have the money to start this.
    Construction costs are going to be higher next year. Is 
there anything we are going to be able to do to help them start 
this year? If not, is it going to be part of the Bureau of 
Reclamation's priorities next year?
    Mr. Connor. Well, we are going to have a hard time getting 
started this year. As you know, we will finish the MPA 
compliance activity by the end of this fiscal year, so if there 
was funding available we would be able to initiate construction 
in fiscal year 2011.
    It is not, as you mentioned, in our budget request. And so 
absent some federal funds being available or the water-users 
who, I do understand now, have approved their bonding issue, 
put in additional money it looks like we are headed towards a 
year's delay in those project costs, and we do have to 
seriously look at that situation.
    That is, as we have discussed, an item now that we have got 
the local funding that we know is going to be made available. 
We do have to look at that as a very high priority need where 
there is a mechanism with the locals to get that done, so it is 
going to be right up there in our considerations next year.
    And I am happy to continue the dialogue that we have had 
ongoing. I think it has been fairly productive. And we will 
continue to negotiate a repayment contract under the new 
authority that was provided in the Omnibus Public Lands bill on 
the chance that there is funding made available.
    Mr. Simpson. Appreciate that.
    Over half of Reclamation's dams and dikes were built in the 
first half of the 20th century. Reclamation has a continued 
responsibility to ensure the safety of these facilities. The 
budget request maintains that dam safety is one of 
Reclamation's highest priorities but the budget request is 
$95.2 million below the 2010 funding level.
    How is this funding level consistent with the 
administration's recognition that dam safety is one of the 
highest priorities? And have there been any dams that have 
failed over the last 5, 10, 20 years? And what is the 
likelihood of that?
    What are we doing about dam safety? It is a concern of 
mine, having lived below the one dam that probably failed--last 
major one--of Reclamation's since Teton Dam.
    Mr. Connor. Yes. I think dam safety--I don't have the exact 
years--has become a much more of a priority for Reclamation. We 
are slightly below--$2 million below the 2010 enacted level, 
but the reason we adjusted that number towards the end of the 
budget process because we were able to put more Recovery Act 
money in towards dam safety funding, specifically to Folsom. So 
we took some of the planned activities for 2011 in Folsom Dam 
and are accomplishing that this year using some additional 
Recovery Act funds.
    Mr. Simpson. So we put Recovery Act funds into dam safety?
    Mr. Connor. Oh, we put a significant amount of--we always 
had some level of Recovery Act funds into dam safety 
specifically for----
    Mr. Simpson [continuing]. Into projects?
    Mr. Connor. Yes, Folsom Dam, the project that has been 
ongoing for several years there. We had an opportunity to 
complete another phase so we put in a little bit more money 
into that particular effort. So it has been a priority; we have 
ramped it up over the last, I think, 5 years--I am not sure 
what the figures are, but we got it up to about a $95 million, 
$100 million program and that is where we are trying to keep it 
right now----
    Mr. Simpson. Okay.
    Mr. Connor [continuing]. Given that it is a priority.
    Notwithstanding that, I think a--not a major failure, as 
you indicated that Teton was but we did have an incident this 
year with Red Willow Dam in Nebraska that has caused us to draw 
down that facility to a safe operating level, which is going to 
impact irrigation in Nebraska this year, and we are doing it 
all-hands-on-deck to get a corrective action plan in place with 
hopefully initiating some action, and we will be looking at our 
budget to take care of that corrective action need in 2012 and 
beyond.
    Mr. Simpson. Well, dam safety is not only an issue with BOR 
but also with the Army Corps. It is one of the primary concerns 
I have with the Army Corps. Did you start any projects with 
ARRA funding that will need additional funding in the future to 
continue or will they be able to be completed with the ARRA 
funding?
    Mr. Connor. You are talking dam safety----
    Mr. Simpson. I am talking--projects, because--well, there 
was direction, as I understand it, that projects that were 
started with ARRA funding were supposed to be completed with 
ARRA funding and not impact the ongoing budget that you 
currently have. So did we start any projects which got 
partially funded and now we are going to have to find funding 
for in the budget for ongoing years?
    Mr. Connor. Let me answer that question for the record.
    Mr. Simpson. Okay.
    Mr. Connor. I think that would be a more complete and 
thoughtful response.
    Mr. Simpson. Okay. I appreciate that.
    One last question: The quagga mussel research--we provided 
funding for an R&D program to determine ways to deal with this 
invasive species. We are very concerned about this in the West 
and its impact on our waters. How much of that funding is 
included in the Reclamation's budget to address the control of 
the quagga mussels and what is the estimated cost that 
Reclamation has to deal with quagga mussels in Reclamation 
projects?
    I mean, it is going to be a huge issue. Obviously it is in 
the Great Lakes area, and, you know, we would just as soon 
leave it there.
    Mr. Connor. Right. And we are taking a, once again, kind of 
across-the-board approach to quagga mussels. We allocated $4.5 
million of Recovery Act money to investigations and trying to 
do the surveys and monitoring, working very closely with the 
states--and Idaho is certainly one of those states--to really 
identify where we have some of these issues.
    Other than that, we have got $1.5 million in our science 
and technology program evaluating ways to deal with the mussels 
once they are there and how to avoid them attaching to some of 
our facilities and ramping up our maintenance costs. Then we 
have money spread out across our regions for additional 
educating the public on not spreading--potentially spreading--
quagga mussels, other protection activities. All told, I think 
we have got in our upcoming request something along the lines 
of $4 million that we are going to be applying towards quagga 
mussel activity----
    Mr. Simpson. Well, let's----
    Mr. Connor [continuing]. On top of the $4.5 million----
    Mr. Simpson. Let's get control of them and reduce them, and 
not to the level where they become endangered, because then we 
have got a problem. So find a way to contain them, because they 
do add significantly to the cost----
    Mr. Connor. Absolutely.
    Mr. Simpson [continuing]. Of operations and can 
significantly damage the infrastructure of all our projects. So 
I appreciate it. Thank you for all you do. I appreciate you 
being here.
    Mr. Rehberg. Will the gentleman yield?
    Mr. Simpson. Sure.
    Mr. Rehberg. Mr. Chairman, could I ask also, then, when you 
get back for the record the answer to Mr. Simpson's question, 
using stimulus dollars for any of those projects that were 
started, either not authorized or new starts? That would 
complete the question that I asked about this current budget--
is any money in this current budget being appropriated or 
requested for either non-authorized--it is not unauthorized, I 
don't think is the right word--but unauthorized or new starts 
and you said no. So the question then would be, were there any 
non-authorized or new starts using stimulus dollars?
    Mr. Connor. Yes. We will combine those questions and make 
it a comprehensive answer.
    Mr. Simpson. Would the gentleman yield?
    Mr. Rehberg. Yes, sir.
    Mr. Simpson. While you are at it--and I am sure that the 
chairman will agree--we would like to know where you have spent 
all the stimulus money, how much has been obligated, you know--
--
    [Laughter.]
    Mr. Rehberg. Did I mention $50 million coming out of my 
state, getting $3 paltry million back? Did I mention that?
    Mr. Simpson. Didn't get any stimulus money at all?
    Mr. Rehberg. We did get stimulus money.
    Mr. Simpson. You did.
    Mr. Rehberg. Yes.
    Mr. Simpson. I thought it was $50 million.
    Mr. Rehberg. What did I say? $30 million?
    Mr. Simpson. $60 million. It went up $10 million.
    Mr. Rehberg. It was $50 million. It was $50 million that 
went to Reclamation funds; it was $3 million back.
    Mr. Simpson. $60 million in Recovery Act----
    Mr. Rehberg. Recovery Act, yes.
    Mr. Simpson [continuing]. Projects in Montana.
    Mr. Frelinghuysen. Can I reclaim my time from you, Mr. 
Simpson?
    Mr. Simpson. Yes.
    Mr. Frelinghuysen. We would like to know how much money has 
been spent, how much has been obligated, anything related, and 
certainly in terms of jobs. I think that is--that was sort of 
why we put all that money out there. All of that money being 
borrowed was to actually promote some, hopefully, private 
sector jobs. Want to comment, or----
    Mr. Connor. Yes, I----
    Mr. Frelinghuysen. If that is all right, Mr. Chairman?
    Mr. Pastor. It is.
    Mr. Connor. Just very briefly--we will provide a full 
accounting as you request, but as of this date, $615 million 
have been obligated of the $950 million that we have received, 
and about $134 million has actually already been expended.
    Ms. Castle. Can I also add that the Central Utah Project 
Completion Act Office is the poster child for Recovery Act 
money spending. They have obligated 99.6 percent of the $50 
million that went to CUPCA and have expended about 60 percent--
--
    Mr. Frelinghuysen. There are no poster children in Idaho?
    [Laughter.]
    Mr. Simpson. I better yield back my time, Mr. Chairman----
    Mr. Pastor. I think you had better, yes.
    And I felt sorry about Montana, you know, about the measly 
$3 million, and now I have got--well, I better start 
complaining about some of the Arizona projects while I am at 
it.
    Mr. Rehberg. If that money is free why don't you give us 
the rest of it, the unobligated dollars? What is going to 
happen to the unobligated dollars? That is one of the questions 
that we always need to ask next.
    Mr. Pastor. Well, I know we have to ask it, and I will--why 
don't you respond for the record as you are going over these--
--
    Mr. Rehberg. Because again, I talk about inflation and we 
are not getting ahead of the game and it keeps costing more, 
and why not take the unobligated and finish----
    Mr. Connor. Well, the unobligated funds that we have, we 
have a schedule and we can provide that, too, of where we 
expect those to be expended--obligated over the next few 
months. For example, the Red Bluff Diversion, the pumping plant 
that we are doing in California, our largest Recovery Act 
project--it is $110 million that we obligated towards that. We 
have already, in a series of contracts, obligated approximately 
half of that money, so it has been a series of buying 
equipment, getting initial designs activities going. Now our 
next contract is going to be the balance of the $100 million, I 
think by the end of May, which will be something along the 
lines of about a $70 million or $80 million contract to 
actually initiate construction activities.
    So that is kind of indicative of the phased-in approach on 
that particular project. A large fish-screening, Contra Costa, 
that we have is similar. And in fact, we have had three series 
of obligations. The last one will be the balance of 
construction and we will move forward. And that is----
    Mr. Pastor. Why don't I make a request that you have all of 
that back to the committee on the record and that way we have 
it and everybody can see what it is and where it is at.
    Mr. Connor. Yes, sir.
    Mr. Simpson [continuing]. To know on that, if I could, Mr. 
Chairman, is, are we obligating ourselves and this committee to 
future spending because of these projects that should have been 
completed with ARRA funds--as I understand it the requirement 
was that the project be completed with those funds.
    Mr. Pastor. Are you asking in maintenance and operation?
    Mr. Rehberg. Not in maintenance and operation, but 
finishing construction.
    Mr. Simpson. And if any of those unobligated funds and 
those projects don't get started that you have got on that list 
of things, there is a Minidoka Spillway waiting.
    Mr. Pastor. Let me ask a question. I will go to Rodney and 
he can--he is yielding time anyway, so I will let him do that.
    I am going to go back to the mussel question. In the last 
year or so there has been great concern on Lake Powell, and 
conversations with the two senators--Senator Kyl and Senator 
McCain--and members of the delegation, there is a concern about 
the contamination of Lake Powell with the mussel.
    I don't know what species it is, but are you aware of it? 
Because I have been told that the Bureau of Reclamation has had 
some concern over it.
    Ms. Castle. Oh, I think we are all very concerned that we 
keep the quagga mussel problem from spreading. It is in Lake 
Mead and----
    Mr. Pastor. In Lake Mead, okay.
    Ms. Castle. Yes. But there is great concern that it not 
spread to Lake Powell, so they have got an aggressive 
inspection--boat inspection--program to just try to make sure 
that boats that have been in areas that are infested don't 
bring the mussels with them to Lake Powell.
    Mr. Pastor. Well, one concern was that we did not have 
enough resources to do adequate policing of the boats coming in 
and that that would--that was where the gap was that the monies 
were not there. And we were talking about what would be 
different methods of providing enough resources so that Lake 
Powell would not get contaminated.
    Ms. Castle. I am not familiar with----
    Mr. Pastor. Okay. Maybe you can respond on the record.
    Ms. Castle. Yes. We can respond on the record.
    Mr. Pastor. Okay.
    Rodney.
    Mr. Frelinghuysen. Commissioner Connor, tell me about the--
is there $10 million for a Bureau-wide urban canal project?
    Mr. Connor. Yes. That is part of the money that we 
allocated towards the aging infrastructure part of our Recovery 
Act program. Approximately $135 million went for various 
rehabilitation projects but we did have $10 million to get our 
arms around this issue that is becoming more readily apparent--
the problem of urban canals and the possibility of failure of 
those canals and the impact on the communities--adjacent 
communities, the example being, and what has driven the issue, 
has been the failure of the Truckee Canal, through Fernley, 
Nevada, which resulted in a significant property loss in that 
area. And so based on that and knowing that that----
    Mr. Frelinghuysen. So these are urban canals basically in 
the western----
    Mr. Connor. Yes. That is correct.
    Mr. Frelinghuysen. In Reclamation's canals in the 17 
western states Idaho has a number of these areas. I would be 
happy to yield to the gentleman, Mr. Rehberg.
    Mr. Rehberg. Thank you, Mr. Frelinghuysen.
    And Mr. Simpson made a very important point. He said he 
didn't necessarily need the operation and maintenance but you 
had said before that operation and maintenance is your number 
one priority and then the project construction. So it does 
matter that if there are projects that were completed using 
stimulus dollars and there is operation and maintenance on top 
of it, that keeps my projects in Montana from being completed 
sooner because you are going to go to operation and maintenance 
as a result.
    And so the question then once again becomes, were there 
projects that were not authorized or new starts using stimulus 
dollars? And I know you are going to need to get back, but that 
becomes very important if construction is after operation and 
maintenance in your list of priorities. So I would like to 
maybe amend Mr. Simpson's request and say, yes, please provide 
for the committee operations and maintenance as well for the 
new projects, completed or not, under stimulus----
    Mr. Connor. Any operation and maintenance obligations that 
we are then incurring as a result of finishing construction 
phases?
    Mr. Rehberg. Yes.
    Mr. Connor. Okay.
    Mr. Rehberg. Using stimulus dollars.
    Mr. Connor. Using stimulus dollars.
    Mr. Rehberg. And once again, whether it was unauthorized or 
new starts.
    Mr. Connor. And just two points that I would make, just--
and I recognize we will be doing this--I don't--either I am not 
understanding, but I don't believe we would be providing any 
money for any unauthorized activities. They are authorized 
activities. That was a fundamental premise of Recovery Act.
    And two, I think--and this is where I want to be careful--
new starts versus--I know that we did start new authorized 
projects in the Title 16 area. The obligation we have in the 
Recovery Act was to be a--ensure that we complete phases, you 
know, so that you were not--that we didn't allocate money to a 
part of a project that would then carry over and we would have 
to naturally fund that the next year, that we could complete a 
phase, such as the rural water projects, a water treatment 
facility--but we will clarify that when we get back.
    Mr. Calvert. In your budget--this fiscal 2011 budget--you 
request funding for specific Title 16 projects, which is 
normal. However, you requested funding for a discretionary 
program where you would award funds for Title 16 projects on a 
competitive basis. Do you think it sends a confusing message to 
Title 16 project sponsors that can receive funds either through 
direct appropriations or through a competitive discretionary 
grant program?
    Mr. Connor. This year is a year of transition, so hopefully 
any confusion will be resolved as we go on task. We have issued 
now--as you know, we worked on the criteria for assessing 
feasibility of projects. Now we have moved into developing 
criteria for prioritizing our funding requests. That is in the 
mix this year.
    We just issued the draft criteria approximately 1 month 
ago; we are taking public comment and input into that. And 
based on that transition where previously we had only low 
dollars for Title 16, approximately in the neighborhood of $7 
million to $9 million, they were being used to fund completion 
of just a few of the originally authorized projects.
    Now we are ramping up the resources available to Title 16. 
I think last year Title 16 received $13.5 million in 2010 
enacted, and we have increased that in our budget request to 
$29 million. So we are increasing the resources, and while we 
have got this criteria development we decided to allocate this 
to a pot of money that we would then apply that criteria.
    We are still determining how to move forward. Next year we 
may use that criteria and just fund projects or, depending on--
--
    Mr. Calvert. Well, obviously you need to clear that up, 
because there is some confusion out there.
    In your budget you mention unauthorized Title 16 projects 
that received nigh construction funding under a new 
discretionary program. Do you envision the limits being both on 
a per-project basis as well as an overall basis for 
unauthorized project funding?
    Mr. Connor. They will all be authorized projects and they 
will all have to fit within the ceiling that is being made 
available. And we will go through the process similar to the 
process that we used in allocating the $135 million for 
Recovery Act.
    Mr. Calvert. Well if, in fact, you go back and you find, 
based on Mr. Rehberg's question, that unauthorized projects 
were funded using stimulus dollars, would a project be eligible 
for non-construction funding?
    Mr. Connor. No. The only projects that are going to be 
eligible for that money are authorized projects--
congressionally authorized projects. That is the list of--I 
think that is one of the first level of criteria in the 
criteria that we just released for comment. So it is authorized 
projects.
    Mr. Calvert. Thank you.
    Thank you, Mr. Chairman.
    Mr. Murray. I appreciate the opportunity to be here today. 
Thank you.
    Mr. Pastor. That concludes the hearing.
    Thank you very much, Madam Secretary, Commissioner. And 
don't forget, send us the answers to the questions. Thank you.

[GRAPHIC] [TIFF OMITTED] T1742A.400

[GRAPHIC] [TIFF OMITTED] T1742A.401

[GRAPHIC] [TIFF OMITTED] T1742A.402

[GRAPHIC] [TIFF OMITTED] T1742A.403

[GRAPHIC] [TIFF OMITTED] T1742A.404

[GRAPHIC] [TIFF OMITTED] T1742A.405

[GRAPHIC] [TIFF OMITTED] T1742A.406

[GRAPHIC] [TIFF OMITTED] T1742A.407

[GRAPHIC] [TIFF OMITTED] T1742A.408

[GRAPHIC] [TIFF OMITTED] T1742A.409

[GRAPHIC] [TIFF OMITTED] T1742A.410

[GRAPHIC] [TIFF OMITTED] T1742A.411

[GRAPHIC] [TIFF OMITTED] T1742A.412

[GRAPHIC] [TIFF OMITTED] T1742A.413

[GRAPHIC] [TIFF OMITTED] T1742A.414

[GRAPHIC] [TIFF OMITTED] T1742A.415

[GRAPHIC] [TIFF OMITTED] T1742A.416

[GRAPHIC] [TIFF OMITTED] T1742A.417

[GRAPHIC] [TIFF OMITTED] T1742A.418

[GRAPHIC] [TIFF OMITTED] T1742A.419

[GRAPHIC] [TIFF OMITTED] T1742A.420

[GRAPHIC] [TIFF OMITTED] T1742A.421

[GRAPHIC] [TIFF OMITTED] T1742A.422

[GRAPHIC] [TIFF OMITTED] T1742A.423

[GRAPHIC] [TIFF OMITTED] T1742A.424

[GRAPHIC] [TIFF OMITTED] T1742A.425

[GRAPHIC] [TIFF OMITTED] T1742A.426

[GRAPHIC] [TIFF OMITTED] T1742A.427

[GRAPHIC] [TIFF OMITTED] T1742A.428

[GRAPHIC] [TIFF OMITTED] T1742A.429

[GRAPHIC] [TIFF OMITTED] T1742A.430

[GRAPHIC] [TIFF OMITTED] T1742A.431

[GRAPHIC] [TIFF OMITTED] T1742A.432

[GRAPHIC] [TIFF OMITTED] T1742A.433

[GRAPHIC] [TIFF OMITTED] T1742A.434

[GRAPHIC] [TIFF OMITTED] T1742A.435

[GRAPHIC] [TIFF OMITTED] T1742A.436

[GRAPHIC] [TIFF OMITTED] T1742A.437

[GRAPHIC] [TIFF OMITTED] T1742A.438

[GRAPHIC] [TIFF OMITTED] T1742A.439

[GRAPHIC] [TIFF OMITTED] T1742A.440

[GRAPHIC] [TIFF OMITTED] T1742A.441

[GRAPHIC] [TIFF OMITTED] T1742A.442

[GRAPHIC] [TIFF OMITTED] T1742A.443

[GRAPHIC] [TIFF OMITTED] T1742A.444

[GRAPHIC] [TIFF OMITTED] T1742A.445

[GRAPHIC] [TIFF OMITTED] T1742A.446

[GRAPHIC] [TIFF OMITTED] T1742A.447

[GRAPHIC] [TIFF OMITTED] T1742A.448

[GRAPHIC] [TIFF OMITTED] T1742A.449

[GRAPHIC] [TIFF OMITTED] T1742A.450

[GRAPHIC] [TIFF OMITTED] T1742A.451

[GRAPHIC] [TIFF OMITTED] T1742A.452

[GRAPHIC] [TIFF OMITTED] T1742A.453

[GRAPHIC] [TIFF OMITTED] T1742A.454

[GRAPHIC] [TIFF OMITTED] T1742A.455

[GRAPHIC] [TIFF OMITTED] T1742A.456

[GRAPHIC] [TIFF OMITTED] T1742A.457

[GRAPHIC] [TIFF OMITTED] T1742A.458

[GRAPHIC] [TIFF OMITTED] T1742A.459

[GRAPHIC] [TIFF OMITTED] T1742A.460

[GRAPHIC] [TIFF OMITTED] T1742A.461

[GRAPHIC] [TIFF OMITTED] T1742A.462

[GRAPHIC] [TIFF OMITTED] T1742A.463

[GRAPHIC] [TIFF OMITTED] T1742A.464

[GRAPHIC] [TIFF OMITTED] T1742A.465

[GRAPHIC] [TIFF OMITTED] T1742A.466

[GRAPHIC] [TIFF OMITTED] T1742A.467

[GRAPHIC] [TIFF OMITTED] T1742A.468

[GRAPHIC] [TIFF OMITTED] T1742A.469

[GRAPHIC] [TIFF OMITTED] T1742A.470

[GRAPHIC] [TIFF OMITTED] T1742A.471

[GRAPHIC] [TIFF OMITTED] T1742A.472

[GRAPHIC] [TIFF OMITTED] T1742A.473

[GRAPHIC] [TIFF OMITTED] T1742A.474

[GRAPHIC] [TIFF OMITTED] T1742A.475

[GRAPHIC] [TIFF OMITTED] T1742A.476

[GRAPHIC] [TIFF OMITTED] T1742A.477

[GRAPHIC] [TIFF OMITTED] T1742A.478

[GRAPHIC] [TIFF OMITTED] T1742A.479

[GRAPHIC] [TIFF OMITTED] T1742A.480

[GRAPHIC] [TIFF OMITTED] T1742A.481

[GRAPHIC] [TIFF OMITTED] T1742A.482

[GRAPHIC] [TIFF OMITTED] T1742A.483

[GRAPHIC] [TIFF OMITTED] T1742A.484

[GRAPHIC] [TIFF OMITTED] T1742A.485

[GRAPHIC] [TIFF OMITTED] T1742A.486

[GRAPHIC] [TIFF OMITTED] T1742A.487

[GRAPHIC] [TIFF OMITTED] T1742A.488

[GRAPHIC] [TIFF OMITTED] T1742A.489

[GRAPHIC] [TIFF OMITTED] T1742A.490

[GRAPHIC] [TIFF OMITTED] T1742A.491

[GRAPHIC] [TIFF OMITTED] T1742A.492

[GRAPHIC] [TIFF OMITTED] T1742A.493

[GRAPHIC] [TIFF OMITTED] T1742A.494

[GRAPHIC] [TIFF OMITTED] T1742A.495

[GRAPHIC] [TIFF OMITTED] T1742A.496

[GRAPHIC] [TIFF OMITTED] T1742A.497

[GRAPHIC] [TIFF OMITTED] T1742A.498

[GRAPHIC] [TIFF OMITTED] T1742A.499

[GRAPHIC] [TIFF OMITTED] T1742A.500

[GRAPHIC] [TIFF OMITTED] T1742A.501

[GRAPHIC] [TIFF OMITTED] T1742A.502

[GRAPHIC] [TIFF OMITTED] T1742A.503

[GRAPHIC] [TIFF OMITTED] T1742A.504

[GRAPHIC] [TIFF OMITTED] T1742A.505

[GRAPHIC] [TIFF OMITTED] T1742A.506

[GRAPHIC] [TIFF OMITTED] T1742A.507

[GRAPHIC] [TIFF OMITTED] T1742A.508

[GRAPHIC] [TIFF OMITTED] T1742A.509

[GRAPHIC] [TIFF OMITTED] T1742A.510

[GRAPHIC] [TIFF OMITTED] T1742A.511

[GRAPHIC] [TIFF OMITTED] T1742A.512

[GRAPHIC] [TIFF OMITTED] T1742A.513

[GRAPHIC] [TIFF OMITTED] T1742A.514

[GRAPHIC] [TIFF OMITTED] T1742A.515

[GRAPHIC] [TIFF OMITTED] T1742A.516

[GRAPHIC] [TIFF OMITTED] T1742A.517

[GRAPHIC] [TIFF OMITTED] T1742A.518

[GRAPHIC] [TIFF OMITTED] T1742A.519

[GRAPHIC] [TIFF OMITTED] T1742A.520

[GRAPHIC] [TIFF OMITTED] T1742A.521

[GRAPHIC] [TIFF OMITTED] T1742A.522

[GRAPHIC] [TIFF OMITTED] T1742A.523

[GRAPHIC] [TIFF OMITTED] T1742A.524

[GRAPHIC] [TIFF OMITTED] T1742A.525

[GRAPHIC] [TIFF OMITTED] T1742A.526

[GRAPHIC] [TIFF OMITTED] T1742A.527

[GRAPHIC] [TIFF OMITTED] T1742A.528

[GRAPHIC] [TIFF OMITTED] T1742A.529

[GRAPHIC] [TIFF OMITTED] T1742A.530

[GRAPHIC] [TIFF OMITTED] T1742A.531

[GRAPHIC] [TIFF OMITTED] T1742A.532

[GRAPHIC] [TIFF OMITTED] T1742A.533

[GRAPHIC] [TIFF OMITTED] T1742A.534

[GRAPHIC] [TIFF OMITTED] T1742A.535

[GRAPHIC] [TIFF OMITTED] T1742A.536

[GRAPHIC] [TIFF OMITTED] T1742A.537

[GRAPHIC] [TIFF OMITTED] T1742A.538

[GRAPHIC] [TIFF OMITTED] T1742A.539

[GRAPHIC] [TIFF OMITTED] T1742A.540

[GRAPHIC] [TIFF OMITTED] T1742A.541

[GRAPHIC] [TIFF OMITTED] T1742A.542

[GRAPHIC] [TIFF OMITTED] T1742A.543

[GRAPHIC] [TIFF OMITTED] T1742A.544

[GRAPHIC] [TIFF OMITTED] T1742A.545

[GRAPHIC] [TIFF OMITTED] T1742A.546

[GRAPHIC] [TIFF OMITTED] T1742A.547

[GRAPHIC] [TIFF OMITTED] T1742A.548

[GRAPHIC] [TIFF OMITTED] T1742A.549

[GRAPHIC] [TIFF OMITTED] T1742A.550

[GRAPHIC] [TIFF OMITTED] T1742A.551

[GRAPHIC] [TIFF OMITTED] T1742A.552

[GRAPHIC] [TIFF OMITTED] T1742A.553

[GRAPHIC] [TIFF OMITTED] T1742A.554

[GRAPHIC] [TIFF OMITTED] T1742A.555

[GRAPHIC] [TIFF OMITTED] T1742A.556

[GRAPHIC] [TIFF OMITTED] T1742A.557

[GRAPHIC] [TIFF OMITTED] T1742A.558

[GRAPHIC] [TIFF OMITTED] T1742A.559

[GRAPHIC] [TIFF OMITTED] T1742A.560

[GRAPHIC] [TIFF OMITTED] T1742A.561

[GRAPHIC] [TIFF OMITTED] T1742A.562

[GRAPHIC] [TIFF OMITTED] T1742A.563

[GRAPHIC] [TIFF OMITTED] T1742A.564

[GRAPHIC] [TIFF OMITTED] T1742A.565

[GRAPHIC] [TIFF OMITTED] T1742A.566

[GRAPHIC] [TIFF OMITTED] T1742A.567

[GRAPHIC] [TIFF OMITTED] T1742A.568

[GRAPHIC] [TIFF OMITTED] T1742A.569

[GRAPHIC] [TIFF OMITTED] T1742A.570

[GRAPHIC] [TIFF OMITTED] T1742A.571

[GRAPHIC] [TIFF OMITTED] T1742A.572

[GRAPHIC] [TIFF OMITTED] T1742A.573

[GRAPHIC] [TIFF OMITTED] T1742A.574

[GRAPHIC] [TIFF OMITTED] T1742A.575

[GRAPHIC] [TIFF OMITTED] T1742A.576

[GRAPHIC] [TIFF OMITTED] T1742A.577

[GRAPHIC] [TIFF OMITTED] T1742A.578

[GRAPHIC] [TIFF OMITTED] T1742A.579

[GRAPHIC] [TIFF OMITTED] T1742A.580



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Castle, Anne.....................................................   427
Connor, M. L.....................................................   427
Darcy, Jo-Ellen..................................................     1
Grisoli, Major General WIlliam...................................     1
Loew, G. A.......................................................     1
Murray, Reed.....................................................   427
Van Antwerp, Lieutenant General Robert...........................     1

</pre></body></html>
